AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
 GRANTS AND COOPERATIVE AGREEMENTS
  AWARDED TO THE NATIONAL FORENSIC
      SCIENCE TECHNOLOGY CENTER
              LARGO, FLORIDA

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

        Audit Report GR-40-14-002
                April 2014



      REDACTED - FOR PUBLIC RELEASE
          AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

           GRANTS AND COOPERATIVE AGREEMENTS

         AWARDED TO THE NATIONAL FORENSIC SCIENCE

                    TECHNOLOGY CENTER

                       LARGO, FLORIDA


                              EXECUTIVE SUMMARY 1


      The U.S. Department of Justice (DOJ) Office of the Inspector General,

 Audit Division, has completed an audit of Office of Justice Programs (OJP)

 grants totaling $48,197,117 awarded to the National Forensic Science

 Technology Center (NFSTC). 


       The primary objective of our audit was to review performance in

 the following areas: (1) internal control environment; (2) drawdowns;

 (3) grant expenditures, including personnel and indirect costs;
 (4) budget management and control; (5) local matching funds;
 (6) property management; (7) program income; (8) federal financial

 reports and progress reports; (9) grant requirements; (10) program

 performance and accomplishments; and (11) monitoring of sub-grantees

 and contractors. We also reviewed conferences sponsored by the NFSTC

 with DOJ grant funds.


       As of November 7, 2013, the grantee had drawn down $47,525,064

 from the 21 grants included in the scope of our audit. Between 

 January 1, 2008, and December 31, 2011, which is the scope of the

 audit, the NFSTC spent $41,984,483 from the 21 grants. We examined

 the NFSTC’s accounting records, required financial and progress reports,

 and operating policies and procedures. We identified several weaknesses 

 in the NFSTC’s internal controls, accounting procedures, and reporting

 practices. We tested $5,937,782 of expenditures and, based on that 

 testing, we questioned $105,778 unreasonable expenses. We also

 questioned $744,395 in unsupported expenses related to a transfer of

 funds from one grant to another. Specifically, we found that the NFSTC:


       •	 did not always properly secure grant-funded equipment;

       •	 paid $105,778 in retroactive salary to employees based on 

          reevaluations of employee job duties;


       •	 allowed an employee to reevaluate her own job duties and 

          recommend a raise for herself;




        1
          The Office of the Inspector General redacted portions of Appendix 4 of this report because it
contains security concerns about the NFSTC facility and information that may be protected by the
Privacy Act of 1974, 5 U.S.C §552(a) or may implicate the privacy rights of identified individuals.


                                                   i
     •	 did not perform regular updates to the budget analysis of actual
        expenditures to approved budget categories;

     •	 inaccurately reported some information on the semiannual

        progress report;


     •	 did not maintain complete and accurate documentation 

        supporting training courses;


     •	 did not obtain proper approval from OJP for use of sole source
        contracts greater than $100,000 on all grants; and

     •	 improperly transferred $744,395 in funds from one grant to

        another without proper support to justify the transfer.


      Our report contains 10 recommendations to address the preceding issues,
which are discussed in detail in the Findings and Recommendations section of the
report. Our audit objective, scope, and methodology are discussed in Appendix 1
of the report.




                                       ii
         AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

          GRANTS AND COOPERATIVE AGREEMENTS

        AWARDED TO THE NATIONAL FORENSIC SCIENCE

                   TECHNOLOGY CENTER

                      LARGO, FLORIDA


                                 TABLE OF CONTENTS




INTRODUCTION ........................................................................ 1

Background .......................................................................................... 2

Our Audit Approach ............................................................................... 3


FINDINGS AND RECOMMENDATIONS........................................ 5

Accounting and Internal Controls ............................................................ 5

Accountable Property............................................................................. 7

Grant Drawdowns ................................................................................. 8

Grant Expenditures ............................................................................... 9

Budget Management and Control .......................................................... 12

Grant Reporting .................................................................................. 15

Program Performance and Accomplishments........................................... 17

Conferences ....................................................................................... 22

Open Recommendation from Previous Audit ........................................... 23

Views of Responsible Officials ............................................................... 26

Recommendations............................................................................... 27


APPENDIX 1 - OBJECTIVE, SCOPE, AND METHODOLOGY......... 28


APPENDIX 2 - SCHEDULE OF DOLLAR-RELATED FINDINGS..... 30


APPENDIX 3 - OFFICE OF JUSTICE PROGRAMS

             RESPONSE TO THE DRAFT REPORT .................. 31


APPENDIX 4 - THE NATIONAL FORENSIC SCIENCE
             TECHNOLOGY CENTER RESPONSE TO
             THE DRAFT REPORT ......................................... 36


APPENDIX 5 - OIG ANALYSIS AND SUMMARY OF ACTIONS 

             NECESSARY TO CLOSE THE REPORT................. 66

               AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

                GRANTS AND COOPERATIVE AGREEMENTS 

              AWARDED TO THE NATIONAL FORENSIC SCIENCE 

                         TECHNOLOGY CENTER 

                            LARGO, FLORIDA 


                                           INTRODUCTION 


      The Department of Justice Office of the Inspector General, Audit Division,
has completed an audit of 2 1 Office of Justice Programs (OJP), grants awarded to
the National Forensic Science Technology Center (N FSTC) . 2: As shown in Exhibit
1 below, the 2 1 grants totaled $48,197,1 17 . The NFSTC received 17 grants from
the National Institute of Justice (NIJ) for $42,2 10,727; 3 grants from the Bureau
of Justice Assistance (BJA) for $4,750,000; and 1 grant from the Office of
Juvenile Justice and Delinquency Prevention (OJJDP) for $ 1,236,390 .

       The NIJ grants were for training, research, technology development,
technology assistance, and support for mobile forensic laboratories. The BJA grants
were for forensic training within the law enforcement community and improvements
to an existing forensic training program . The OJJDP grant supported the
continuation and enhancement of an existing cell phone and portable storage
forensic training curricu lum .

                   EX HIBIT 1: O FFICE O F JU STI CE PROG RAMS G RANTS AWARDED 

                    TO THE NATIO NAL FO REN SI C SCIEN CE TECHN O LOGY CENTER 


 Grant Numbe r              Start Date          End Date         Grant Amount          Pro aram Office
2007 - DD-BX-K072           09/01/ 2007        09/ 30/ 2009             $1,000,000            BJA

2007-IJ-CX-K023             10/ 01/ 2007       09/ 30/ 2012             $8,157,000            NIl
2007-IJ-CX-K233             01/ 01/ 200S       12/ 31/ 2009             $1,000,000            NIl
2007-MU - BX-KOOS           11/ 01/ 2007       12/ 31/ 2011           $ 12 ,200,000           NIl
200S - DN-BX- K072          01/ 01/ 2009       09/ 30/ 2011               $638,080            NIl
200S - DN-BX- K073          01/ 01/ 2009       12/ 31/ 2011               $446,87S            NIl
200S - DN-BX- K1S6          01/ 01/ 2009       12/ 31/ 2010               $689 ,000           NIl
200S - DN-BX- K201          01/ 01/ 2009       12/ 31/ 2010               $935 , 514          NIl
2008-IJ-CX-K405             10/ 01/ 200S       06/ 30/ 2011               $450 ,000           NIl
2008- LT -BX - K002         09/01/ 200S        06/ 30/ 2010             $ 1,93 1,792          NIl
200S-MU-MU-K003             11/ 01/ 200S       10/ 31/ 2010             $6,000,000            NIl
200S-MU-MU-K212             10/ 01/ 200S       03/ 31/ 2010               $811,431            NIl


          2   The NFSTC received cooperative agreements. In this report, we refer to all awards as
grants.

                                                      1
 Grant Number            Start Date     End Date       Grant Amount       Program Office
2009 -Dl- BX- K028       01/ 01/ 2010   09/ 30/ 2013        $1,750,000         BJA

2009 - DN-BX- K197       01/ 01/ 2010   12/ 31/ 2011         $580,292          NIl
2009 - DN-BX- K198       01/ 01/ 2010   12/ 31/ 2011         $627,321          NIl
2009 - DN-BX- K223       01/ 01/ 2010   08/ 31/ 2011         $248,951          NIl
2010 - DD-BX-K009        10/ 01/ 2010   09/ 30/ 2013        $2,000,000         BJA

2010 - DN-BX- K210       10/ 01/ 2010   09/ 30/ 2012        $6,199 ,989        NIl
2010 - DN-BX- K265       01/ 01/ 2011   12/ 31/ 2012         $638,700          NIl
2010 - DN-BX- K266       01/ 01/ 2011   12/ 31/ 2012         $655 ,779         NIl
2010-MC-CX-K063          07/ 01/ 2010   06/ 30/ 2013        $1,236,390        OJJDP

                         Total                            $48,197,117

Source : Office of Justice Programs

       In September 2009, we audited three NIJ grants awarded to the NFSTC. The
audit found internal control weaknesses with the NFSTC's accounting software and
requests for drawdowns. It also id entified $252,336 in questioned costs for
unsupported, unallowable, and unreasonable grant expenditures. The audit re po rt
contained eight recommendations, six of which were closed afte r OJP prov id ed
documentation to support the actions necessary fo r closure. The remaining two
recommendations were combined into one recommendation during the follow-up
process and addressed a transfer of funds from one grant to another. Because this
recommendation rema ins open, during t his audit we evaluated t he NFSTC's actions
to address the recommendations. We also assessed the corrective actions
implemented by t he NFSTC to address the internal control weaknesses we
previously identified.

Background

       OJP's mission is to increase public safety and improve the administration of
justice across America through innovative leadership and programs. OJP seeks to
accomplish its mission by dissemin ating state-of-the art knowledge and practices
ac ross America by provid ing grants for the implementation of these crime-fighting
strategies. To support this mission, t he NIJ serves as the research, development,
and evaluation age ncy of the Departme nt of Justice and provides knowledge and
tools to reduce crime and promote justice through the use of science . BJA provides
leadership and assistance to loca l criminal justice programs that improve and
reinforce the nation's cri minal justice system with goals to reduce and prevent
crime, vio len ce, and d rug abuse and to imp rove the way the crim inal justice system
functions. OJJDP provides national leadership, coord ination, and resources to
prevent and respond to juvenile deli nquency and victimization .




                                              2
      The NFSTC is located in Largo, Florida, a municipality in Pinellas County just
north of St. Petersburg. The NFSTC is a nonprofit corporation established in 1995
by the American Society of Crime Laboratory Directors to provide services to
forensic laboratories.

       The initial grants awarded to the NFSTC by OJP were intended to expand the
range and scope of services the NFSTC could offer to forensic laboratories.
Services provided by the NFSTC include audits of forensic laboratories and training
for the forensic community.

       Prior to its first OJP grant in April 2000, the NFSTC was a small organization
involved in designing curricula for forensic science programs; conducting pre-
American Society of Crime Laboratory Directors Laboratory Accreditation Board
audits; and presenting workshops on fire debris analysis, laboratory auditing,
quality systems, and DNA statistics. Upon receiving OJP grant funds, the NFSTC
expanded its staff and began providing forensic science services to the forensic
community at no cost to the recipients. Since April 2000, the NFSTC has received
26 OJP grants totaling approximately $83 million.

OIG Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we
audit against are contained in the OJP Financial Guide, the Code of Federal
Regulations, Office of Management and Budget (OMB) Circulars, and the grant
documents. We tested:

   •	 Accounting and Internal Controls to determine whether the grantee
      had sufficient accounting and internal controls in place for the processing
      and payment of funds and whether controls were adequate to safeguard
      grant funds and ensure compliance with the terms and conditions of the
      grant;

   •	 Grant Drawdowns to determine whether grant drawdowns were 

      adequately supported in accordance with federal requirements;


   •	 Grant Expenditures to determine the accuracy and allowability of costs
      charged to the grant;

   •	 Budget Management and Control to examine the amounts budgeted and
      the actual costs for each approved cost category and determine if the
      grantee deviated from the approved budget, and if so, if the grantee
      received the necessary approval;

   •	 Federal Financial Reports (FFR) and Progress Reports to determine
      whether the required reports were submitted on time and accurately
      reflected grant activity;


                                          3

   •	 Property Management to determine if property items acquired with
      grant funds are tracked in a system of property records, adequately
      protected from loss, and used for grant purposes; and

   •	 Accomplishment of Grant Requirements and Objectives to determine
      if the grantee met or is capable of meeting the grant’s objectives and
      whether the grantee collected data and developed performance measures
      to assess accomplishment of the intended objectives.

       We also performed limited work to confirm that the NFSTC did not generate
or receive program income and was not required to contribute any local matching
funds. Consequently, we performed no testing in these areas.




                                        4

                 FINDINGS AND RECOMMENDATIONS

       We determined that the NFSTC provided the services as required
       under the grants but we identified internal control and reporting
       deficiencies. The NFSTC did not maintain proper supporting
       documentation for its drawdowns and Federal Financial Reports,
       and it did not maintain complete documentation for training
       sessions funded by DOJ grants. The NFSTC paid employees
       $105,778 in retroactive salary payments not authorized by OJP,
       including one instance where the Human Resources Director
       analyzed her own salary level. We question $105,778 in
       unreasonable retroactive payments. The NFSTC lacks proper
       controls to ensure its staff regularly and accurately compares
       expenditures to the approved budget to ensure transfers between
       budget categories do not exceed 10 percent without OJP approval.
       Consequently, the NFSTC may have exceeded the allowed amount
       of transfers between budget categories without approval for 7 of
       the 21 grants. The NFSTC received sole source approval for an
       event planner for four grants, but used the same event planner on
       seven other grants and did not obtain sole source approval from
       OJP. Finally, $744,395 was improperly transferred from Grant
       Number 2000-RC-CX-K001 to Grant Number 2006-MU-BX-K002
       and, consequently, we question $744,395 as unsupported.

       We performed audit work at the National Forensic Science Technology
Centers’ office in Largo, Florida, where we obtained an understanding of the
accounting system and reviewed a sample of grant expenditures. In addition,
we reviewed grant documents, including the application, award, budgets, and
financial and progress reports. We also interviewed key National Forensic
Science Technology Center personnel.

Accounting and Internal Controls

       According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system should
ensure, among other things, the identification and accounting for receipt and
disposition of all funds, funds applied to each budget category included in the
approved grant, expenditures governed by any special and general provisions,
and non-federal matching contributions.

Financial Management System

      We conducted a limited review of the NFSTC’s financial management system,
which included a review of the financial management and reporting processes for
funds awarded to the NFSTC, an examination of various grant accounting records
and reports prepared by the NFSTC, and interviews with NFSTC personnel

                                         5

regarding grant expenditures. To verify the NFSTC’s financial management and
reporting processes, we compared grant drawdowns identified in OJP drawdown
records to NFSTC’s accounting records. We also compared actual expenditures to
the expenditures approved for each budget category. We determined that the
NFSTC properly accounted for grant receipts and expenditures by grant. 3 We
reviewed the NFSTC’s grant accounting system and its policies and procedures to
assess the NFSTC’s risk of non-compliance with laws, regulations, guidelines, and
terms and conditions of the grant. We identified an area of risk regarding budget
management and control, which is discussed later in the report.

Internal Controls

      The OJP Financial Guide states that grantees should establish and maintain
program accounts. Such accounts should enable the separate identification and
accounting for the receipt and disposition of all funds. The accounts should also
demonstrate the application of all funds to each approved budget category.

        We interviewed personnel responsible for the grants’ financial and program
management and observed accounting activities and processes. We requested a
list of the accounting personnel and their duties. We also requested an
accounting system report that identified individuals with system access and the
roles of those individuals within the accounting system. We reviewed the
documentation and concluded that the separation of duties within the accounting
department appeared adequate. However, our testing identified internal control
deficiencies for drawdowns, accountable property, personnel authorizations,
budget management, and financial reports. These deficiencies are discussed in
more detail later in this report.

Single Audits

       According to the special conditions of the grant, the OJP Financial Guide, and
OMB Circular A-133, any organization that expends $500,000 or more in federal
funds in the organization’s fiscal year is required to have a single organization-
wide audit conducted for that fiscal year. These audits are referred to as “Single
Audits.” As shown in Exhibit 2, the NFSTC’s expenditures of federal funds
exceeded $500,000 in fiscal years (FY) 2008 through 2012. 4




       3
          During the previous audit, we found that the NFSTC was not accounting for grant
expenditures by grants in its accounting system. We recommended that OJP ensure that the NFSTC
begin accounting for expenditures by grants to comply with the OJP Financial Guide requirements.
OJP agreed with the recommendation.
       4
           The NFSTC’s fiscal year is from January 1 through December 31.

                                                 6

                              EXHIBIT 2: NFSTC EXPENDITURES OF 

                             FEDERAL FUNDS FOR FISCAL YEARS 2008 

                                        THROUGH 2012 

     Fiscal Yeal"             2008           2009           2010           2011            2012


   Total Fedel"al
                           $10,498, 773   $12, 386,216   $12,976, 360   $10, 796, 198   $4,499, 096
   Expenditul"es

               ,
Source . NFSTC s Single Audits

        The NFSTC had Sing le Audits conducted by an independent accounti ng firm
for fiscal yea rs 2008 through 2012 in accordance with the provisions of OMB
Circular A-133. We reviewed the independent auditors' assessments, which
disclosed one weakness in the 2008 audit related to sepa ration of duties for cash
transaction processing and recording. The NFSTC corrected this issue, which was
not repeated in the 2009 thro ugh 2012 audits. The Single Aud its also tested
compliance with Office of Management and Budget Circu lar A-133 and reported no
instances of n oncompliance . We did not identify any findings in the Sing le Audits
that may have affected the grants included in our audit scope .

Accountable Property

        The OJP Financial Guide requires t hat accountable pro perty purchased with
g rant funds be identified in the grantee's officia l inventory . The NFSTC provided
lists of its accountable property divided by fixed and non-fixed assets.5 The
Financial Guide requires t hat a contro l system be in effect to ensure adequate
safegua rds to prevent loss, damage, or theft of property.

       The list of fixed assets contained 59 items va lued at $1,215,670. We tested
100 percent of these assets and located each item. Ho wever, two la rge pieces of
telephone equipment valued at $25, 110 were located in an unlocked equipment
closet. When grant-funded equipment is not pro perly secu red , the risk of loss or
theft increases.

      The list of non-fixed assets contained 306 items va lued at $172,510. We
tested a j udgmental samp le of 94 items valued at $97,633 (57 percent) and
located all 94 of the items. The 94 item s tested co nsisted of computers,
audiovisual equipme nt, other information technology related items, and furniture.
We identified the following three concerns .

     • 	 The property records contained a tablet computer, asset tag number 1916,
         shown as assigned to a senior officia l. We found that the tablet had been
         assigned to an information technology employee who kept it at home fo r
         use on work-related items. During the audit, the employee brought the


        5 The NFSTC classified its assets as either fixed or non-fixed assets . A fixed asset is defined
as any sing le tangi ble item or property with an original or market value of $5,000 or more. Non-fixed
assets are items or property with an or iginal or ma rk et value of less than $5,000 .

                                                    7

           tablet into the office and we verified it. While we were able to verify the
           tablet, we were not able to determine whether it was used for grant
           purposes.

     •	 We located six other items, asset tag numbers 2011, 2012, 2013, 2057,
        2076, and 2128, in a place different from that listed on the non-fixed asset
        list. NFSTC employees told us they would update the list to accurately
        note the location of these items.

     •	 We identified a non-fixed asset item, asset tag number 1964, a portable
        audio player, stored in an unlocked desk drawer.

       Accountable property records that do not accurately reflect the location of
grant-funded equipment increase the likelihood for lost, damaged, or stolen
equipment. Unsecured grant-funded equipment increases the risk for lost or
stolen property. We recommend that OJP ensure the NFSTC updates its asset list
to ensure that locations for DOJ grant-funded accountable property are identified
accurately. We also recommend OJP to ensure the NFSTC maintains all grant-
funded items in a locked location.

Grant Drawdowns

       The OJP Financial Guide generally requires that recipients time their
drawdown requests to ensure that federal cash-on-hand is the minimum needed
for disbursements to be made immediately or within 10 days. The Financial
Guide also requires recipients to maintain all financial records and supporting
documents for at least 3 years following the close of the grant. We interviewed
NFSTC officials responsible for requesting drawdowns and reviewed the NFSTC’s
accounting records and drawdown procedures. The NFSTC submits drawdown
requests monthly using a Statement of Revenues and Expenditures report
developed from the NFSTC’s accounting system. 6 The NFSTC generates a
Statement of Revenues and Expenditures report and calculates the difference
between the total drawdowns received and expenditures incurred as of the
drawdown request date. We found that the NFSTC did not maintain copies of
these reports to support each drawdown request. Therefore, we could not
determine whether total expenditures recorded in the accounting records
reconciled to the drawdown requests.

      During the audit, we told NFSTC officials that we were unable to properly test
the drawdowns because the organization did not maintain support for the
Statement of Revenues and Expenditures used to produce the drawdown requests.
We discussed with NFSTC officials the documents we would need to properly test
the drawdowns.




       6
         The Statement of Revenues and Expenditures Report provides details of the total
expenditures incurred and funds received as of the drawdown request date.

                                                8

      The officials provided detailed documentation for their most recent drawdown
requests and asked us whether the documentation was sufficient. We reviewed the
documentation and concluded that such documentation would be sufficient to
support future drawdowns.

Grant Expenditures

       The OJP Financial Guide requires that expenditures be accounted for and
adequately supported. The budgets approved by OJP for the 21 grants we
reviewed totaled approximately $48.2 million. Of that $48.2 million, about
$9.8 million (20 percent) was for travel for NFSTC employees, trainees, and
contractors; $18.2 million (38 percent) was for contracts; $2.4 million
(5 percent) was for equipment and supplies; $5.3 million (11 percent) was for
“other expenditures”; and $12.5 million (26 percent) was for personnel and
fringe benefits. Contract expenditures include expenses for all contracts used by
the NFSTC, including those for instructors and consultants on various projects.
The “other expenditures” category includes expenses such as building rent,
insurance, communication, professional development for the employees, postage
and delivery, and printing and reproduction.

       For purposes of our audit testing, we divided the NFSTC’s expenditures
into the broad categories of “direct expenditures” and “personnel expenditures.”
The following sections discuss the results of our testing.

Direct Expenditures

       We reviewed grant expenditures to determine if costs charged to the grants
were allowable, supported, reasonable, and properly allocated in compliance with
grant requirements. We identified 25,921 direct expenditure transactions totaling
$24,495,776. 7 We selected a sample of 260 of the 25,921 transactions valued at
$5,053,556 (21 percent of total expenditures). We obtained and reviewed
supporting documentation for the 260 transactions and verified all of the
expenditures. We determined that all expenditures were allowable, supported,
reasonable, and properly allocated.

Personnel Expenditures

       From the $8,252,299 in NFSTC personnel and fringe benefit expenditures, we
selected a judgmental sample of 101 transactions valued at $225,237. These 101
transactions consisted of the salaries and fringe benefits paid to 18 employees. In
some instances, we reviewed more than one transaction for some employees. For
three employees, all pay periods within a year were selected to examine possible
variations in payments within a calendar year. The 101 transactions consisted of



        7
          For testing purposes, we excluded from these transactions all personnel expenditures and all
conference expenditures that were easily identifiable, on which we report separately. The details of
the personnel and conference expenditures are discussed later in the report.

                                                  9

33 in 2008, 6 in 2009, 33 in 2010 and 29 in 2011. The exhibit below shows the
number of transactions reviewed for the 18 employees.

                                  EXHI BIT 3 · PERSO NNEL SA MPLE
                                                            Numbe r o f
                                  Emplo y ee           Tran sactio n s Test e d


                                  Employee 1                      1
                                  Employee 2                      2
                                  Employee 3                     24
                                  Employee 4                      3
                                  Employee 5                     27
                                  Employee 6                      1
                                  Employee 7                      5
                                  Employee 8                      1
                                  Employee 9                      1
                                 Employee 10                      1
                                 Employee 11                      1
                                 Employee 12                      1
                                 Employee 13                      1
                                 Employee 14                      2
                                 Employee 15                      1
                                 Employee 16                      1
                                 Employee 17                     2.
                                 Employee 18                      2
                                           Tot a l              1 01
                             Source . OIG Ana lysI s

        For each transaction , we requested supporting documentation to include
timesheets , pay stubs , and check registers. B We tested payroll records for each
employee and each pay period selected to determine if the position and salary
matched the applicable grant budget. We identified five positions that were not
listed in the approved grant budgets. We also found that salaries paid were often
higher than those in the approved grant budgets. We discussed these issues with
NFSTC and OJP officials. NFSTC officials told us that the budgets were plans and
not necessarily firm requirements and were often developed long before the actual
sa lary payments were made or before the NFSTC officials knew which staff
members were required to complete the grant-funded work .




        6 Pay stubs contain t he details of a person 's pa ycheck , including t he sala ry and any
deductions taken from the salary . Check reg isters are li sts of all the checks written, either by hand or
electronically by the company.

                                                     10 

       OJP officials agreed that the budgeted payroll infor mation, both positions and
salaries were estimates. Based on those discussions, we consider the added
positions and salary increases to be reasonable.

       We identified 10 other employees who received payments t hat were g reater
than their normal salary payments. These higher payments ranged from
app rox imately $6,500 to $35,000 made in a single pay period . NFSTC staff told us
that these additional payments were ret ro active adjustments to pay for certain
employees based on evaluations of those employees' positions. NFSTC officials
evaluated some employees' positions, determined the employees were not being
paid at a level commensurate with the work being performed, and consequently
increased the employees' salary.

      We requested a list of all retroactive salary payments from January 1, 2008,
through December 31,201 1, and identified 15 additional employees who received
retroactive adjustments to their salaries .

       As shown in the exhibit below, 25 employees received retroactive salary
payme nts totaling $105,778. Employee 16, who is the Director of the Human
Resources Department, conducted an eva luation of her own position and
recommended her own salary increase and retroactive pay. We believe this
constitutes a conflict of interest. Properly segregated duties prevent an employee
from performing such actions rega rding thei r own compensation .

                              EX HI BIT 4 : RETROA CTIVE PAYMENTS
                         FRO M JANUARY 2008 THRO UGH D ECEM BER 20 11



                       Employee                Dat e o f            Re troactive
                                              Pa yme nt          Pa yme nt Amount

                      Em ployee 1           08/ 08/ 2008                     $1 ,840
                      Em ployee 2            10/ 03/ 2008                    $2,440
                      Em ployee 3            10/ 03/ 2008                      $508
                      Emp loyee 3           04/ 03/ 2009                        $56
                      Em ployee 4           02/ 20/ 2009                    $26,409
                      Em ployee 5           02/ 20/ 2009                     $5 ,701
                      Em ployee 6           02/ 20/ 2009                     $3,493
                      Em ployee 7           02/ 20/ 2009                     $3,443
                      Em ployee 8           02/ 20/ 2009                     $1 ,968
                      Em ployee 9           03/ 20/ 2009                     $4, 241
                     Employee 10            04/ 03/ 2009                     $3, 199
                     Employee 11            04/ 03/ 2009                    $16,136
                     Employee 12            04/ 03/ 2009                     $1 ,071



      9     Emp loyee number 3 and number 20 each receiv ed two separate retroactive salary
payments.

                                                  11
                  Employee                Date of                  Retroactive
                                         Payment                 Payment Amount

                 Employee 13            05/ 15/ 2009                      $1 ,048
                 Employee 14            OS/ 29/ 2009                      $7, 527
                 Employee 15            OS/ 29/ 2009                      $7, 323
                 Employee 16            OS/ 29/ 2009                     $12,578
                 Employee 17             12/ 11/ 2009                       $747
                 Employee 18            04/ 16/ 2010                        $913
                 Employee 19            09/17/ 2010                         $637
                 Employee 20            08/ 08/ 2008                      $1,528
                 Employee 20            09/17/ 2010                         $512
                 Employee 21             10/ 01 / 2010                      $788
                 Employee 22             10/ 15/ 2010                       $256
                 Employee 23            03/ 04/ 2011                        $581
                 Employee 24            04/ 01 / 2011                       $125
                 Employee 25            04/ 01 / 2011                       $710
                                                         Total         $105,778
              Source . OIG Ana lysIs of Personnel Expenditures

       We discussed the retroactive payments with OJP officia ls wh o told us that
they consider the retroactive payments as unauthorized because the NFSTC did not
obtain approval for the payments. In addition, OJP officia ls agreed that an
employee within human reso urces shou ld not eva luate their own compensation and
recommend sa lary increase and retroactive pay.

       We question the retroactive salary payments totaling $ 105,778 as
unreasonable expenses and recommend that OJP remedy the questioned costs. We
also recommend that OJP ensure that the NFSTC esta blish interna l cont rols to
prevent a grant-funded emp loyee from conducting self-eva luati ons of pay. We
discussed the ret roactive payments wit h NFSTC officia ls. We explained that we
consider the retroactive payments as unallowable beca use the NFSTC did not
receive approval from OJP. We also exp lained that we consider the retroactive
payments unreasonable because the NFSTC did not include plans for making
retroactive payments and the basis for the retroactive payments in the grant
application submitted to OJP.

Budget Management and Control

        Accord ing to the OJP Finan cial Gu ide, a grantee may transfer f unds between
approved budget catego ries without OJP approval if the total transfers are 10
percent o r less than the grant amount. Req uests for transfers of f unds between
budget catego ries of over 10 percent must be submitted to OJP for approval.
Add itionall y, there are certain changes to approved budgets that, when anticipated,

                                               12 

grantees must obta in advance approval from the Office of Ju stice Programs . The
changes requiring approval are:

   • 	 any budget revision that changes the scope of the project and affects a cost
       category that was not included in the orig inal budget, and

   • 	 cumulati ve tran sfers among approved budget categ ories that exceed or are
       expected to exceed 10 percent of the total approved budget.

       The NFSTC's budget management and con trol procedures were not adequate
t o ensure the cumulative tran sfers of fund s within the approved budget ca tegories
we re 10 percent or less than the grant amount. 10 We discussed with NFSTC officia ls
the procedures followed t o ensure actual grant expenditures remain within 10
percent of the amount approved for the budget categories . The NFSTC offi cials told
us they reconcile actual expenditures t o budget categ ories by grouping
expenditures accord ing to general ledger codes and then compa ring t otal cost s for
each group t o the budget categories .

        The NFSTC officials provided u s their analyses of the grouped expenditures
compa red t o the approved budget catego ries for all 21 grants we reviewed . We
attempted t o verify the NFSTC's analyses by using general ledger groupings
provided by t he NFSTC and co mparing the total cost s t o t he approved budget
ca tegories as described by the NFSTC. We fou nd sig nificant differences between
our analysis of grant expenditures and the NFSTC's. Exhibit 5 below provides an
example of t he discrepancies identified for 1 of the 21 grants included in our audit
scope .

                            EXHIBIT 5: NFSTC 2009 GRANT EXPENDITURES
                               FOR GRANT NUMBER 2008 -LT- BX- K002

                                                       OIG Analysis of
           Budget             NFSTC Budget               Accounting
          Category              Analysis                  Records             Difference

         Eq uipment              $510,202                  $87 , 003           $423,199
         Consultants             $212,808                 $210 ,304               $2 , 504
      Source . NFSTC Budget AnalysIs and DIG Ana lysIs

        We requested suppo rt for the differences. The NFSTC provided t wo m ore
ve rsio ns of its ana lyses, but neither matched our analyses. The NFSTC staff told us
that the differences occurred because of adjustments for accruals, co rrections,
reclassifications of grant expe nditures, and personnel cha nges within the accounting
department that required reassignment of the duties for manag i ng grant-funded
expenditures.

       Given the differences between the budget analyses and explanatio ns for the
discrepancies, we concl uded that the NFSTC's accounting records did not permit an

       10 Grantees are allowed to transfer funds within the approved budget categories; however ,
the cumulative transfers should not exceed 10 percen t of the grant total.

                                                13 

accurate comparison of actual expenditures to approved budget costs. However,
we used the third analysis of actual expenditures to approved budget categories
prov ided by t he NFSTC to assess compliance with the 10 percent requirement. We
used the thi rd analysis because NFSTC staff told us that it was the most recent and
updated reconciliation of actual expenditures to approved budget categories. From
this analysis, it appears t hat cumulative transfe rs exceeded 10 pe rcent of the total
app roved budgets for 7 g rants. Exhibit 6 below shows the total cumulative t ransfer
amounts fo r 7 of the 21 grants tested t hat exceeded the 10 percent rule.

                                   .
                         EXHIBIT 6· 10 PERCENT ANALYSIS RESULTS
                                                  Total
                                                Cumulative
                                Grant            Transfer
                              Number             Amount
                          2009-0N-BX-K198        $62 ,918
                          200S-LT-BX-K002        $80,926
                          200S-0N-BX-K073         $7,245
                          200S-MU-MU-K212         121 500
                          2007-MU-BX-KOOS        $264644
                           2007-IJ-CX-K233       $85067
                          2007-00-BX-K072         150094

                              Total Cost             $772394
                       Source. OIG AnalysIs

       We identified weaknesses in the NFSTC's controls fo r managing actual
expenditures in accordance with the app roved budget categories. Corrections and
adjustments were routinely made to t he accounting reco rds without reconciling the
changes to the approved budget categories. Because accounting records a re used
to assess compliance with the 10 percent requirement, we do not believe the
accounting reco rds accurately reflect the actual expenditures for the grants
reviewed. As a result, we do not consider t he $772,394 as questioned costs.

       However, we believe the NFSTC could improve its budget management and
control practices. The NFSTC should perform routine reviews of its budget ana lyses
and ensure corrections and transfe r of funds in the accounting records are
considered when managing the grant's budget. We reco mmend that OJP ensure
that the NFSTC performs ro utine updates to its analyses of actual expenditures to
app roved budget costs to ensure corrections and adjustments are considered.

        The NFSTC should also t rack all transfers of funds between budget
categories. According to OJP, grantees should track transfers of funds and when
the cumulative t ransfers are 10 percent of the grant, a Grant Adjustment Notice
should be requested. We recommend t hat OJP ensure the NFSTC t racks cumulative
t ransfe rs of funds.

       According to OJP's Chief Financial Officer, a Grant Adjustment Notice should
have been requested when cumulative transfers reached 10 percent of the project
costs. We also recommend that OJP require the NFSTC establish controls over



                                              14 

cumulative transfers so that OJP approval is obtained when total cumulative
transfers reach 10 percent of the grant’s budget costs.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be submitted
by the grantee. Federal Financial Reports (FFR) provide information on monies
spent and the unliquidated obligations incurred during the grant period. Program
progress reports provide information on the status of grant-funded activities and
other pertinent information.

Federal Financial Reports

       Grantees are required to submit timely and accurate financial reports and
grant progress reports to the Office of Justice Programs. Prior to October 2009,
the NFSTC was required to submit quarterly Financial Status Reports (FSR)
within 45 days after the end of each quarterly reporting period. Beginning
October 1, 2009, the Federal Financial Report (FFR) replaced the FSR. FFRs are
due 30 days after the end of each calendar quarter. A final financial report is
due 90 days after the end of the grant period. During the time period covered
by our audit, the NFSTC was required to submit 175 FFRs for the 21 grants
under review. To test those reports, we reviewed the most recent four quarters
of reports for each of the 21 grants reviewed, for a total of 84 reports reviewed.

       One of the 84 FFRs we reviewed was submitted late by the NFSTC. The
single late report resulted from a technical issue with OJP’s Grants Management
System outside of the NFSTC’s control. Consequently, we conclude that the
NFSTC submitted timely FFRs.

       We attempted to review the FFRs for accuracy but were unable to do so
because of a lack of sufficient summary accounting data. NFSTC officials told us
that beginning in 2008 when the NFSTC staff started using the new accounting
system, the profit and loss statements were printed to determine costs to be
reported in the financial reports. In May 2010, NFSTC staff determined the costs
reported in the FFRs by compiling the monthly and cumulative financial data for the
reporting period in spreadsheets. However, the NFSTC did not retain the
spreadsheets for submitted reports.

       The NFSTC provided an example of the spreadsheet used to summarize total
costs for a reporting period. We determined that the spreadsheet along with the
detailed accounting records for that time period provided sufficient support for the
reported costs. During our audit work, NFSTC staff prepared and provided to us a
cost spreadsheet for the FFRs that we tested. This spreadsheet prepared for our
audit did not tie to the amounts on the submitted FFRs because the newly-prepared
spreadsheet included adjustments made to the accounting records after the FFRs
were submitted to OJP. The NFSTC did not retain a list of adjustments associated
with each reporting period and recreating the original spreadsheet was
consequently difficult and time consuming. Because the NFSTC did not retain

                                         15

summary accounting data used to support the submitted FFRs, we could not verify
the accuracy of those reports.

        During the audit, we discussed with NFSTC officials the fact that summary
accounting data for prior financial reporting periods was not retained by the NFSTC.
We explained that we would recommend that such documentation be retained. The
NFSTC officials immediately implemented revised procedures to retain appropriate
documentation. We reviewed the documentation provided for one quarter to
ensure that the NFSTC was retaining all of the necessary documentation to support
the FFRs. The documentation for that quarter appeared adequate. Because the
NFSTC corrected the problem during the audit, we make no recommendation
regarding the support for the financial reports. However, we recommend OJP
ensures that the NFSTC maintains adequate documentation to support explanations
for all adjustments and corrections made to grant expenditures.

Progress Reports

       According to the OJP Financial Guide, grant recipients must submit progress
reports semi-annually for discretionary grants. These reports should describe the
status of the project and include a comparison of actual accomplishments to the
objectives, or other pertinent information. According to 28 Code of Federal
Regulations, Section 66.40, progress reports will contain for each grant, brief
information on:

       •	 a comparison of actual accomplishments to the objectives established for
          the period;

       •	 the reasons for slippage if established objectives were not met; and

       •	 additional pertinent information including, when appropriate, analysis and
          explanation of cost overruns or high unit costs.

       We tested whether the NFSTC submitted timely, complete, and accurate
progress reports. During the time period covered by our audit, the NFSTC was
required to submit 92 progress reports for the 21 grants under review. To test
those reports, we reviewed the progress reports for the 2 most recent years for
each of the 21 grants. We reviewed 82 reports and found that all were submitted
timely. 11 We also tested the progress reports for completeness and accuracy by
comparing a sample of program accomplishments described in the two most recent
reports for each grant to the grant application and supporting documentation
maintained by the NFSTC. We determined that the NFSTC’s progress reports were
complete. The NFSTC reported actual accomplishments in accordance with the
program goals and objectives outlined in the grant application.



       11
          For two of the grants reviewed, there were only three reports available at the time of our
review. Each of the other 19 grants had 4 reports.


                                                 16

        Many of the objectives of the 21 grants the NFSTC received were to deliver
workshops and training sessions. The NFSTC reported that these workshops and
training sessions were held as described in the grant applications. We reviewed the
documentation maintained by the NFSTC for 52 reported accomplishments from the
two most recent reports for each grant. These accomplishments included training
sessions, quality assurance reviews of laboratories, and white papers prepared by
the NFSTC. 12 The Financial Guide requires the funding recipient to ensure that valid
and auditable source documentation is available to support all data collected for
each performance measure specified in the program solicitation. We verified the
accuracy of the reported accomplishments by reviewing training documentation
such as student sign-in sheets, training materials, and course completion
certificates.

      We also reviewed quality assurance reports and white papers. Other than the
exceptions noted below, we determined that the NFSTC’s progress reports were
accurate for the items we tested.

      We identified the following concerns regarding documentation for training
sessions.

            •	 For 25 training sessions, the NFSTC did not maintain sign-in sheets.
               The NFSTC only required sign-in sheets for courses where the NFSTC
               was paying stipend checks for travel costs. For those sessions that did
               not require stipend checks, the NFSTC did not maintain sign-in sheets
               and used class rosters to track participants for reporting purposes.

            •	 For 19 training sessions, the sign-in sheets were incomplete in that the
               date of the training was not recorded or daily sign-in sheets were not
               maintained for multi-day courses.

            •	 For 3 training sessions, the number of participants was understated.
               For the 3 training locations, the NFSTC reported 20 participants,
               however the sign-in sheets indicated that two of the locations had 21
               participants and the third had 22 participants.

        As a result, we could not determine if the number of reported participants
was accurate for 47 of 67 training sessions that we reviewed. By not maintaining
proper documentation for the training sessions, the NFSTC is unable to support all
of its progress towards the goals of the grants and is potentially unable to properly
determine future needs for training sessions.

Program Performance and Accomplishments

       Grant goals and accomplishments should be based on measurable outcomes
rather than on counting activities. The Government Performance and Result Act


       12
           A white paper explains the results, conclusions, or construction resulting from some
organized committee, research collaboration or design and development effort.

                                                 17

provides a framework for setting goals, measu ri ng progress, and u sing data to
improve performance. To measure prog ress, grantees shou ld establish a baseline
measu re and a system for collect ing an d ana lyzing data needed to measure
prog ress.

       To identify specific objectives for the grants covered in our audit, we
reviewed grant applications submitted by the NFSTC. We identified 42 objectives
from the 2 1 grants in our audit and compared each objective to the st atus of the
projects reported in the NFSTC's semiannual reports. We determined that 19 of t he
2 1 grants had ended as of Feb ru ary 14, 20 14 .

        We fou n d that the NFSTC generally accomp lished the grants' objectives for
the grants reviewed. These object ives consisted of developing and providing
training sessions in va r ious techn ical and forensic areas, prov iding DNA assessme nt
aud its and Gra nt Progress Assessments to loca l labo ratories around the count ry,
supporting t he adoption of new techno logy, and provid ing technology assistance
and support t o crim ina l just ice agencies on a nat ional basis . We reviewed the
NFSTC's progress reports t o determ ine if t he NFSTC was meeting the goa ls it had
estab lished in the grant app lications. We found t hat t he NFSTC had met or was in
the process of meeting most of the 42 obj ectives. Because t he NFSTC did not
ma int ain attendance sign - in sheet s fo r 25 t raining sessions, t raining dates we re
in complete fo r 19 t rai ning sessions, and attendance numbers we re under reported
for 3 t raining sessions, we cou ld not deter m ine if all obj ect ives were fu lly met.
Exh ibit 7 shows the 42 obj ect ives and the res ults of our ana lysis of the prog ram
perfo rmance and accomplishments.

                                  .
                      EXHIBIT 7 · OBJECTIVES FOR NFST C GRANTS
Count       Gl"ant Numbel"                          Ob ·ectives                   Ob ·ective Met
                              Combat I nternet Crimes Against Children
                              (ICAC) more effectively by extend ing the reach
   1                          and enhancing the delivery of specialized
                              tra ining and technica l assistance to ICAC Task
                              Forces and affi li ated law enforcement aaencies.        YES
                              Foster collaborative relat ionships among
   2                          agencies charged with figh t ing Internet Crimes
                             Against Child ren.                                        YES
                              Extend the reach of th e ICAC t ra ining program
           2010-MC-CX-K063    to include more law enforcement agencies by
   3
                              participating in conferences and other out reach
                              efforts.                                                 YES
                              Compile and dissem inate ICAC mater ial to law
                              enforcement through the Office of Juvenile
   4
                             Justice and Delinquency Pr evention (OJJDP)
                              website and conferences .                                YES
                              Report program infor mation to OJJDP regard ing
   S                          continuation, expansion and enhancement of
                              ICAC T ra inina Proaram .                                YES




                                              18 

Count    Gr-ant Number­                              Db -ectives                        Db -ective Met

  •                            Ana lyze the req uirements of crime scene
                               investiaators _
                               Design and develop train ing that meets the
                                                                                             YES

                               requirements of investigators who possess
  7     2010 - DN-BX-K266
                               more than three years of experi ence in crime
                               scene investigations .                                        YES 

                               Deliver a blend ed learning program that 

  8
                           imparts the req uisite skills and knowledge via
                               on li ne and hands-on instruction .                           YES
                               Increase the num ber of forma lly t ra ined pattern          eND
                               evid ence personnel providi ng comprehensive
  9     2010 - DN-BX-K265
                               ll-course tra ining for up to 15 entry- level            Tra ining Date
                               latent or int examiner s.                                 I ncomolete
 10                            I d entify technoloQY requ irements.                           YES
                               Support NI J's research and deve lopment
 11
                             I proQrams.                                                     YES 

 12 
                          Test eva lu ate and demonstrate technologies .                YES 

 13 
                          Su ort the ado tion of new technolo                           YES 

 14 
   2010 - DN-BX-K210      Develo and or u date tech nolo            u id elines.        YES
                               Provide technology assistance and support to
 1S
                               criminal ·ustice aaencies on a nationa l basis .              YES

 ,.                            Operate a DNA Qua lity Assurance audit
                               program and Grant Progress Assessment (GPA)
                               ProQram .                                                     YES
                               NFSTC will work in conjunction with BJA to
                               respond to the need of practitioners by                      eND
                               providing expertise and support via : 

 17 
   2010 - DD-BX- K009            • Confer ences and meetings                            No cost
                                      • T ra ining events                                   extension
                               Techn ic~~/~ss istance (field dem o~~~ rations and        t hrough Sep
                               efficienc improv ement programs .                              2014
                               Create an online program that educates law
                               enforcement practit ioners on the policy and
                               pra ct ice issues regarding the use of DNA
                               ana lysis to investigate crimes. Will work with
 18     2009 - DN-BX-K223      out reach coordi nator to promote tra ining
                               program through activities with organizations
                               such as the Internationa l Association of Chiefs
                               of Police, the Nationa l Security Agen cy, and the
                               Nationa l Association of Attor neys Genera l.                 YES
                               Enhance the existing Pattern Evidence tra ining
                               program while lever ag ing trademarked curricula             eND
 19     2009 - DN-BX-K198      and program mater ials to exp lore new and
                               inn ovative solutions to meet t rain ing needs of        Tra ining Date
                               Pattern Evidence practitioners .                          I ncom-plete
                                Deve lop and d eliver online medico legal d eath             eND
                                investigation tra ining mater ials utilizing content
 20
                                from p ilot tra ining program that NFSTC                Tra ining Date
                                de livered in 2008 .                                     Incom-plete
                                Ad m inister th is on line course to 200 medical
 21
                                examiners or coroners.                                       YES
        2009 - DN-BX-K197
                                                                                             eND
                              Create and deliver 3 day capstone course that
 22
                              will be offered 4 t imes on-site at NFSTC to 25           Tra ining Date
                              students ( 100 total) .                                    Incomolete
                              Provid e over 8,000 hours of tra ining in the
 23
                              areas of the forensic science di scioli ne.                    YES

                                              19 

Count    Gr-ant Number­                        Db -ectives                       Db -ective Met
                            Deliver services that will support the goa ls and
                            objectives of the Bureau of Justice Assistance
                            (BJA) in addressing fo rensic t ra ining needs
                            within the law enforcement commu~itv such as :
 24                         DNA Biolo ica l Screenin for l aw Enforcement             YES
 2S                         Tactical Crime Scene InvestiQation                        YES
        2OO9-Dl-BX-K028
                            l aw Enforcement Conference-Maximizing                    eND
 2.
                            Forensic Resources
                                                                                       Nf A
 27                                                                               Service never
                            Med ica l Examiner Tra ining                           requested
                                                                                       Nf A
 28                                                                               Service never
                             Infrastructure and Technoloav Support                 reauested
                            The NIJ's goa l is to continue supporting the
                            justice community by provid ing relevant                  eND
                            tra ining opportunities for fo rensic science
                            practit ioners, members of the j udiciary, and law    Tra ining Date
 29     2OOS - MU-MU-K212
                            enforcement officers, ther eby contributing to a     Incomplete and
                            more accurate deter mination of guilt or                inaccurate
                            innocence of those ind ividua ls charged with          attendance
                            committina cr imina l acts _                              number
                                                                                      eND
                            Focus on developing and deliver ing prog rams
 30     2OOS - MU-MU-KOO3
                            that support the NIJ's DNA Initiatives and             No sign-in
                            Forensic Backloa Reduction efforts.                      sheet
                            Provide fund ing to support the maintenance,
 31                         repa ir, transportation and improvement of the
        2OO8- lT-BX- KOO2
                            deplovable forens ic laboratories.                         YES
 32                         Infrastructure support equipment pu rchases.               YES
                            Forensic Infor mation Data Exchange (FIDEX)
 33                         Pro ·ect
        2OOS-IJ-CX-K40S                                                                YES
 34                         CSI Effect - Forensic Fact or Fiction                      YES
                            Develop new t raining programs, leverage
                            existing tra ining curricula, and exp lore new and
        2OO8- DN-BX-K201
                            innovative solutions to meet the tra ining needs          eND
 3S
                            of crime scene examiner s, which reduce the
                            impact that current tra ining programs have on       Tra ining Date
                            aQencyoperations.                                     I ncomplete
                            Develop new t raining programs, leverage
                            existing tra ining curricula, and exp lore new and
        2OO8- DN-BX-K1S6
                            innovative solutions to meet the tra ining needs          eND
 3.
                            of Pattern Evidence practit ioners, which reduce
                            the impact that current train ing programs have        No sign-in
                            on aaency oper ations.                                   sheet
                                                                                      eND
                            The objectives of the proposed train ing
                            programs are a imed at provid ing tra ining            Tra ining Date
 37     2OO8- DN-BX-K073    opportunities in the fo rensic d iscipline area of   I ncomplete and
                            Forensic DNA by specifically addressing the            sign-in sheet
                            following community need: Emerging                   m issing for one
                            Technolog ies.                                             day




                                           20 

 Count         Gr-ant Number­                           Db -ectives                     Db -ective Met
                                 Enhance existing training; lev erage approv ed
                                 tra ining curricula; and to explore new and
                                 innovativ e solutions to meet the tra ining needs
                                 of forens ic science pr actit ioners_ The NFSTC
                                 will design and deve lop tra ining resourc es that
   38        200B- DN-BX-K072
                                 accommodate mult iple delivery methods,
                                 incl ud ing trad it iona l face-to-face and                 eND
                                 d istance/ blended learning _ Tra ining will be
                                 deliv ered and d issem inated usi ng portal and          No sign-in
                                 learnina manaaement system technoloaies _                  sheet
                                 Provide testing , eva lu ation, technology
                                 assistance programs, and other services with           Papers partially
   39        2007-MU - BX-KOO8   rega rd to tools and technolog ies for use by law       presented but
                                 enforcement and other crimina l justice                   no sign-in
                                 agencies.                                                  sheets
                                 Develop new t raining programs,
                                 leverage exist ing tra ining curricula, and explor e
                                 innovativ e solutions to meet the tra ining
                                 needs o f fo rensic science practitioners.
                                 All programs are aimed at provid ing t rain ing
                                 opportunities in the fo llowing areas :
                                 • Cold Case Reg iona l Tra ining for Law                    eND
                                    Enforcement;
   40         2007-IJ-CX-K233
                                 • Missing Persons and Unidentifi ed Decedents            No sign-in
                                    Reg ion al Tr aining fo r Law Enforcement;              sheet
                                 • Forensic DNA (delivery only)
                                    Pattern Ev idence;
                                 • Controlled Substances;
                                 • Toxicology;
                                 • Firea r ms and Toolmarks; and
                                 • Forensic MicroscoDv.
                                 Develop porta l from which to access the
                                 Nationa l Missing and Unidentifi ed Persons
                                 System where the Un identified Decedent
                                 Reportin g System and the Find -the-Missing
   41         2007-IJ-CX-K023
                                 system databases can be assessed by law
                                 enforcement, med ica l exam in ers, coroners,
                                 victim advocated and the publ ic providers and
                                 searched by the p ubl ic .                                  YES
                                 To dev elop forens ic service support for law
                                 enforcement agencies in the Tampa Bay region
                                 of Flor ida based , in part, on the Regional Cold
                                 Case Tra ining Conferences co- sponsor ed by the            eND
                                 Nationa l Institute of Just ice ( NIJ ) and the
   42        2007- DD-BX-K072    Nationa l Forensic Science Technology Center             No sign-in
                                 (NFSTC); and                                               sheet
                                 • To dev elop a basic Medical Exam in er train ing
                                    resource for fo rensic fellows; and
                                 • To integrate new technolog ies into the
                                   delivery of forens ic science services.
Source . OIG Ana lysI s




                                                21 

 Conferences

       In addition to assessing the NFSTC’s use of grant funds and program
performance for the grants included in our audit scope, we conducted a limited
review of NFSTC-sponsored conferences funded by the Department of Justice. We
also reviewed the NFSTC’s use of event planners for the conferences.

Conference Expenditures

       To identify NFSTC-sponsored conferences paid with the DOJ grants included
in our audit scope, we reviewed grant applications, the NFSTC’s website, and
requested a list of conferences from the NFSTC. We found that the NFSTC held 21
conferences of varying sizes, times, and scopes between 2007 and 2011. The total
expenses paid to the hotels for the 21 conferences were $1,327,082 and all
expenditures were charged to the grants we reviewed. We obtained expenditure
information for the conferences to determine the costs by expenditure category.
The categories included food, audio-visual, lodging, and room rental. We selected
nine conferences to evaluate the expenditure categories in more detail. The
conference selections were based on the highest hotel contract costs to include the
cost per person per day, food costs, audio-visual costs, and conferences held in
places considered as resort locations.

       We requested detailed information from the NFSTC about the hotel contracts,
the accounting records, and any other pertinent details available to support
conference expenditures. We also contacted the conference hotels to obtain
documentation supporting conference expenditures. The nine conferences were
held at eight different hotels. We were unable to obtain conference information
from one of the hotels because of a change of ownership and conference records
were no longer available.

      We reviewed 264 conference expenditures totaling $658,989 to determine if
there were any expenses that appeared unreasonable or unallowable. The
conference expenditures included items for food, beverages, audio-visual
equipment, room rentals, and lodging. The conference expenditures appeared to
be reasonable and properly supported.

Use of Event Planners for NFSTC-sponsored Conferences

       We also reviewed the NFSTC’s use of event planners for the 21 conferences.
We found that the NFSTC used one event planner regularly to plan its conferences.
The NFSTC awarded the event planner five grant-funded contracts. Under the
contracts, the event planner performed services such as: (1) attending planning
meetings, (2) researching lodging sites, (3) coordinating travel arrangements for
participants, (4) planning and contracting for food services during the event, and
(5) providing onsite support during events. From 2008 through 2011, NFSTC paid
the event planner $607,918 from DOJ grant funds. The event planner submitted
monthly invoices for management services provided under the contracts. NFSTC


                                        22

staff reviewed and signed off on the monthly invoices and by doing so indicated
that the services had been provided and that the invoice should be paid.

      We reviewed invoices totaling $258,775, which was 43 percent of the
$607,918 paid to the event planner. All of the transactions we reviewed were
supported by monthly invoices and were allowable under the contracts.

       The NFSTC established five sole source contracts with the event planner for
services provided during September 2008 to December 2011. 13 Three of the five
event planner contracts were sole source contracts for more than $100,000, and
such contracts require OJP approval. 14 The three contracts requiring sole source
approval totaled $521,475.

       We verified that OJP provided approval for the use of sole-source event
planner contracts under 4 of the 11 grants that were used to pay event planner
costs under sole-source contracts over $100,000. However, the NFSTC did not
obtain OJP approval for the use of sole-source event planner contracts for the other
seven grants used to pay event planner costs under sole source contracts over
$100,000. We confirmed this analysis with OJP officials. We did not question the
event planner expenditures that were charged to the contracts without sole source
approval because the NFSTC financial records did not consistently indicate to which
contract each expense was applied. We recommend that OJP ensure that the
NFSTC obtains proper approval for all sole source contracts over $100,000. The
sole source approval should apply to all grants used to pay the contract costs.

Open Recommendation from Previous Audit

       During our previous audit of the NFSTC, we identified a potentially
inappropriate drawdown from Grant Number 2000-RC-CX-K001 that occurred prior
to the expiration of the grant. To explain the circumstances regarding this
drawdown, we provide below an extended excerpt from our previous audit report. 15

        For Grant Number 2000-RC-CX-K001, we identified a questionable
        drawdown that occurred on December 14, 2007, just before that grant
        was to expire at the end of the month. In this transaction, the NFSTC
        drew $744,395 from the 2000 grant, which was the full amount
        remaining unspent for the grant. NFSTC officials told us that the
        purpose of the drawdown was to reassign expenditures to the 2000
        grant from the 2006 grant. These were expenses that NFSTC officials
        believe should have been drawn from the 2000 grant, but had been

        13
           A sole source contract is a contract that is entered into after soliciting and negotiating with
only one source.
        14
         The 2008 OJP Financial Guide states regarding procurement that all sole-source
procurements in excess of $100,000 must receive prior approval from the awarding agency.

        15
           U.S. Department of Justice Office of the Inspector General, National Institute of Justice
Cooperative Agreements and Grants Awarded to the National Forensic Science Technology Center,
Largo, Florida, Audit Report GR-40-09-005 (September 2009), 17-19.

                                                   23

inadvertently drawn from the 2006 grant. This would effectively
replace unspent funds of $744,395 back in the budget for the 2006
grant, which would then be available for the NFSTC to spend. As part
of this transfer of expenses from one grant to another, NFSTC staff
sent a check back to OJP for that same amount to be refunded to the
2006 grant.

       The OJP Financial Guide does not permit the transfer of funds
from one grant to another. This questionable drawdown allowed the
NFSTC to use all remaining funds in the expiring grant and to increase
the funds that will be available for future expenses in the 2006 grant.
Since the NFSTC’s accounting practices failed to account for funds by
individual grants and it combined expenditures for various grants in
the same drawdowns, we questioned NFSTC staff about the basis for
determining the $744,395 worth of expenditures that had been
mistakenly claimed for the wrong grant.

      We requested documentation from the NFSTC to support the
$744,395 NFSTC staff told us was inadvertently drawn from the 2006
grant. The documentation that NFSTC staff provided dated at the
beginning of 2007. However, the initial draw for the 2006 grant was
on May 9, 2007. It would not be consistent with the NFSTC’s
procedures for timely and frequent drawdowns for expenses dating
back to the beginning of 2007 to have been held until May. We
brought this to the attention of NFSTC staff, which then provided us a
second set of expenditure documentation to support the $744,395
drawdown.

       The second set of expenditures provided to us included some
costs that appeared allowable and others that did not. The
expenditures included costs for two projects, the Firearms Academy
and Community Outreach, which appear to be appropriate under the
2000 grant. Our review of the budgets for the various grants showed
the Firearms Academy was budgeted solely in the 2000 grant, while
Community Outreach efforts were budgeted in all three grants.

       However, the second set of expenditure documentation also
included unallowable indirect costs. The documentation included
indirect costs of 14 percent and 7 percent for the Firearms Academy
and Community Outreach projects, respectively, consisting of labor
and benefits for support staff and overhead expenses. The NIJ did not
approve any indirect costs or rates for the grants. Consequently, all
transactions must be directly attributable to a project defined in the
grant and no indirect costs are allowable.

        We analyzed the information provided to support the shifting of
costs from one grant to the other and held discussions with NFSTC
officials. NFSTC officials were unable to support clearly that the funds

                                   24

      were all inadvertently originally charged to the wrong grant. The
      NFSTC was unable to provide accurate and consistent information
      regarding the expenses that were charged to each grant, and we were
      unable to determine which transactions were charged to the wrong
      grant. While some of the transactions used to support the inadvertent
      drawdowns appear to be legitimate and allowable, other costs, such as
      the indirect costs, were not. Therefore we recommend that OJP
      require the NFSTC to accurately account for the $744,395 in costs
      shifted from the 2006 grant to the 2000 grant. Additionally, because
      the NFSTC did not have an approved indirect cost rate, we are
      questioning $229,229 of the $744,395, which is the amount NFSTC
      attributed to indirect costs for Grant Number 2000-RC-CX-K001.

      In our previous audit report, we recommended that OJP require the NFSTC to
account for the entire $744,395 in costs it shifted from Grant Number 2006-MU-BX­
K002 to Grant Number 2000-RC-CX-K001. Subsequent to the audit, we
corresponded with OJP regarding corrective action on the recommendation. In that
correspondence, we stated that the recommendation could be closed when OJP
provided documentation showing that the NFSTC had adequately supported the
$744,395 or that the NFSTC returned any unsupported and unallowable costs to the
Department of Justice.

      OJP requested that we close the recommendation because:

      •	 the NFSTC mistakenly drew down the $744,395 in funds from the 2000
         grant rather than from the 2006 grant;

      •	 the NFSTC contacted OJP to determine the best way to correct this error
         and was advised to return the funds to OJP;

      •	 the refund payment was erroneously applied to the 2006 grant;

      •	 the NFSTC provided a copy of its general ledger to support the federal
         expenditures reported for both the 2000 and 2006 grants; and

      •	 the expenditures agree with the payment history reports for both grants.

       We declined to close the recommendation because we believe that the
$744,395 returned by the NFSTC should have been added to the 2000 grant, which
had then reached the end of its grant period. OJP should then have either
deobligated the $744,395 from the 2000 grant or sought to extend the period for
the 2000 grant to allow the NFSTC to use the remaining funds for allowable
expenditures under the 2000 grant. Further, we believe that the net effect of the
NFSTC’s and OJP’s actions was that the NFSTC was allowed to shift $744,395 that it
could not expend under the 2000 grant into the 2006 grant. This permitted the
NFSTC to expend under the 2006 grant $744,395 more than the amount authorized
for that grant.


                                        25

      Given that the NFSTC and OJP transferred $744,395 from the 2000 grant to
the 2006 grant, we did not close the recommendation. Instead, we determined to
seek, as part of this second NFSTC audit, specific support for how the NFSTC used
the $744,395 shifted from the 2000 grant to the 2006 grant.

       During this audit, we discussed the shifted funds with the NFSTC’s then Chief
Operations Officer and reviewed documents provided to us by the NFSTC. The
Chief Operations Officer told us that the NFSTC is not able to provide
documentation specifically supporting the $744,395. The documents provided for
our review consisted for the most part material previously provided during the prior
audit or our follow-up on the prior audit recommendation. The documents provided
did not constitute support for the expenditures. The Chief Operations Officer
mainly reiterated to us that NFSTC managers believed they had received OJP
approval for the transfer of funds from the 2000 grant to the 2006 grant and thus
they believed the transfer was acceptable.

       Based on our prior audit, follow-up correspondence related to that audit, and
our work on the current audit, it is clear that on December 19, 2007, NFSTC sent
OJP a refund check from its 2000 grant funds in the amount of $744,395. NFSTC
staff annotated on the check the 2006 grant number, and OJP staff applied the
refund to the 2006 grant. Subsequently, the NFSTC drew down all funds from the
2006 grant, including the excess funds created by the refund. Although the NFSTC
staff should not have annotated the refund check with 2006 grant number and, we
believe that, regardless of the annotation, OJP staff should not have applied the
refund to the 2006 grant.

      In conclusion, the shifting of $744,395 from Grant Number 2000-RC-CX­
K001 to Grant Number 2006-MU-BX-K002 violated policy that: (1) grant monies
may not be transferred from one grant to another and (2) unobligated balances at
the end date of grants should be returned to the awarding agency. The 2006 OJP
Financial Guide states that funds specifically budgeted and received for one project
may not be used to support another and any unobligated funds will be deobligated
by the awarding agency. Consequently, we question $744,395 as unsupported.

Views of Responsible Officials

      We discussed the results of our review with grantee officials as the audit
work progressed and at a formal exit conference. We have included their
comments as appropriate.




                                         26

Recommendations

We recommend that OJP:

 1.	 Ensure that the NFSTC establishes controls to adequately secure grant-funded
     equipment.

 2.	 Ensure the NFSTC updates its asset list to ensure that locations for DOJ grant-
     funded accountable property are identified accurately.

 3.	 Remedy the $105,778 in unreasonable questioned costs for retroactive pay
     that the NFSTC provided based on reevaluations of employee job descriptions.

 4.	 Ensure that the NFSTC establishes controls to ensure proper segregation of
     duties for individuals assigned to recommend salary increases paid with grant
     funds.

 5.	 Ensure that the NFSTC establishes controls to perform routine updates to

     budget analyses of actual expenditures to approved budget categories to

     ensure corrections and adjustments are considered.


 6.	 Ensure that the NFSTC establishes controls to track cumulative transfers of

     grant funds within budget categories.


 7.	 Ensure that the NFSTC accurately reports progress on the grants in the

     semiannual progress reports.


 8.	 Ensure that the NFSTC maintains complete and accurate documentation
     supporting all training courses held, including sign-in sheets with full dates.

 9.	 Ensure that the NFSTC obtains approval for all sole source contracts greater
     than $100,000. The sole source approval should apply to all grants used to
     pay the contract costs.

10.	 Remedy the $744,395 in unallowable questioned costs from the transfer of
     funds from Grant Numbers 2000-RC-CX-K001 to 2006-MU-BX-K002.




                                          27

                                                                     APPENDIX 1
               OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in accordance
with applicable laws, regulations, guidelines, and terms and conditions of the
grants, and to determine program performance and accomplishments.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

       This was an audit of 21 grants awarded to the National Forensic Science
Technology Center for $48,197,117. In conducting our audit, we reviewed Federal
Financial Reports and progress reports and performed testing of grant expenditures,
including reviewing supporting accounting records. A full random sample was done
due to the transaction population size, along with a review of internal controls and
procedures for the grants we audited. This non-statistical sample design does not
allow for projection of the test results to all grant expenditures or internal controls
and procedures. In total, the grantee had expended $41,984,483 between
January 1, 2008, and December 31, 2011, and had drawn down $47,525,064 as of
November 7, 2013. We initially judgmentally selected 40 transactions. During our
testing, we expanded our sample to include 260 randomly selected transactions,
which totaled $5,053,556.

       The primary objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant expenditures,
including personnel and indirect costs; (4) budget management and control;
(5) local matching funds; (6) property management; (7) program income;
(8) federal financial and progress reports; (9) grant requirements; (10) program
performance and accomplishments; and (11) monitoring of sub-grantees and
contractors. In addition, we performed follow-up work on the recommendations
provided in our previous audit report GR-40-09-005, issued in September 2009.

       We performed limited testing of source documents to assess the
timeliness and accuracy of Federal Financial Reports, reimbursement
requests, expenditures, and progress reports; evaluated performance to
grant objectives; and reviewed the grant-related internal controls over the
financial management system. We tested invoices as of December 2011.
However, we did not test the reliability of the financial management system
as a whole. We reviewed the grantee’s Single Audit Reports, which were
prepared under the provisions of the Office of Management and Budget



                                          28

Circular A-133. We reviewed the independent auditor’s assessments, which
disclosed no weaknesses or noncompliance issues directly related to grants
awarded to the National Forensic Science Technology Center.




                                       29

                                                                                APPENDIX 2

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

   QUESTIONED COSTS 16                                            AMOUNT                 PAGE


   Unreasonable Retroactive Salary Payments                       $105,778                 11

   Unsupported Budget Transfers                                   $744,395                 23




   Total Questioned Costs                                         $850,173



   TOTAL NET DOLLAR-RELATED FINDINGS                              $850,173





        16
           Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable.


                                                 30

                                                                                                APPENDIX 3

      OFFICE OF JUSTICE PROGRAMS RESPONSE
              TO THE DRAFT REPORT


                                                   U.S. Dep a rtm ent     orJustice
                                                   Office ofJustice Programs

                                                   OjJic~   ofAudit, Asussment, ond Management



     MAR : \ 2014


MEMORANDUM TO:                Ferris B. Polk
                              Regional Audit Manager
                              Atlanta Regional Audit Office
                              Office of the Inspector General


FROM:                        ~hn~
                             Acting Director

SUDJECT:                      Response to the Dmft Audit RCjX)rt, Audit oJthe Offic~ ojJustic~
                              Programs, Notional institute ojJustice GmnlS and Cooperative
                              Agreements Awarded to th~ Notional Forensic Science Technology
                              Center, Largo, Florida

This memorundum is in reference to your correspondence, d ated February 20, 2014, transmitting
the above-referenced dra ft audit report for the National Forensic Science Technology Center
(NFSTC). We consider the subject report resolved and request written acceptwlce of this action
from you r office.

The draft report contains 10 recommendations and 5850,173 in questioned costs. The following
is tbe Office of Justice Programs' (OJP) analysis of the dra ft audi t report recommendatio ns. For
case of review, the recommendations are restated in bold and are followcd by our response.

I.       We recommend that QJP ensure thllt the Nl<1)T C        e8ta bli~ h Clj   controls to adequa tely
         ue ure g rant-rund ed equipment.

         OJP agrees with the recommendation. We will coordinate with N FSTC to obtain a
         copy of policies and procedures developed and implemented to strengtben controls over
         equipment purehased with Federal fund..:!.

2.       We recommend Ihat OJP ensure th at th e NFST C upd ales illasstt lil l to enl ure that
         localion' for DOJ gr a ol-fund ed a ecounlablc property are idenlified ace u ra lcly.

         OJP 8g1ttS witb the rec.:ommendation. We wi ll coordinate with NFSTC to obtain 8
         copy of policies and procedures developed nod implemented to ensure that locations of
         acoourilable property purchased with Federal funds are accU lel y identified in NFSTC's
                                                                    Nl
         KCOroS.




                                                31

3.   We recommend that OJP remedy Ihe S10S,778 in un rellso nable qUl'slioned costs for
     retroactive pay thai ihe NFSTC provided based on reevalualions of employee job
     descriptions.

     OJ? agrees with the recommendation. We will coordinate with the NFSTC to remedy the
     $ 105,778 in questioned costs related to retroactive pay that the NFSTC provided based on
     reevaluations of employee job descriptions.

4.   We recommend that OJP ensure thatlhe NFSTC eShlblishes controls to ensure
     proper segregation of duties for individuals a ~s ig n ed to recommend salary increases
     paid witb grant funds.

     OJP agrees with the re<:ommendation. We will coordinate with the NFSTC t.o obtain a
     copy of policies and procedures developed and implemented to ensure proper segregation
     of duties for individuals who are assigned to recomme nd salary increases paid with
     Federal grant fWlds .

S.   We reeommend that OJP ensure that the NFSTC ~t a blis h es controls to perform
     routine updates to budget analyses of actual expenditu res to a pproved budget
     catcgori~ 10 ens ure eorrections and adjustments are considered.


     OJP agrees with the recommendation. We will coordinate With the NFSTC to obtain a
     copy of policies and procedures developed and implemented to ensure that analyses of
     actual expenditures to approved budget categories arc: routinely updated. and corrections
     and adjusunenlS are considered, as applicable.

6.   We recommend that OJP ensure that the "'FSTC esta blishes controls to track
     cumulative trllnsfers of gnnt funds within budget clltegories.

     OJP agrees with the recommendation. We will coordinate wi th the NFSTC to obtain a
     copy of policies and procedures developed and implemented to ensure that cumulative
     transfers ofFe<iera! grant funds within budget categories nre properly tracked.

7.   We recommend that OJP ensure that the NFSTC IIccurlltely reports progress on (he
     grants in the semi-annual progress reports.

     OJP agrees with the recommendation. We will coordinate with Ihe NFSTC 10 obtain a
     copy of policies and procedures developed and implemented to ensure the accuracy of
     data reported in future semi-annual progress reports.




                                             32

8.     We rt!eommend tbat OJP ensure that the NFSTC mai ntains complete and accurate
       documentation supporting all training courses held, including sign-in sheds with
       full dates.

       OJP agrees with the recommendation. We will coordin:'ltc with the NFSTC to obtain a
       copy of policies and procedures developed and implemented to ensure the maintenance or
       complete and accurate documentation supporting all training cou~ held, including
       sign-in sheets with full dates.

9.     We recommend that OJI' ensure that the NI"STC obtains approva l for all sole
       source contracts greater than $100,000. The sole source approval sllOuld ap ply to
       all grants lIsed to pay the contract costs.

       OJP agrees with the recommendation. We will coordinate with the NFSTC to obtain a
       copy of policies and procedures developed and implemented to ensure that prior approval
       is obtained from the awarding agency fo r all sole source contracts greater than S I00.000,
       which arc funded by Federal grants.

10.    We recommend that O,tp remedy the 5744,395 in unallowable qU H tioned
       costs from the transfer ofrunds from gnnt num bers 2000-RC-CX-KOOl to
       2006-MU-BX-KOO2.

       OJP agrees with the recommendation. We will coordinate with the NFSTC to remedy the
       $744,395 in unallowable questioned costs related to the transrer of funds from grant
       number 2000-RC-CX-KOOI to grant nwnber 2006-MU-BX-K002.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley. Dt:puty Director.
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Denise O'Donnell
       Director
       Bureau of Justice Assistance

       Tracey Trautman
       Deputy Director for Programs
       Bureau of Justice Assistance

       Eileen Garry
       Deputy Director
       Bureau of Justice Assistance




                                                33

cc:   James Simonson
      Budget Director
      Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Juslice Assistance

      Lucia Turck
      Oranl ProgrJrn Specialist
      Bureau of Justice Assist.mce

      Elizabeth White
      Orant Program Specialist
      Bureau of Justice Assistance

      Oregory Ridgeway
      Acting Director
      Nalionallnstilutc of Justice

      Gerold Laporte
      Acting Director. Office of Investigative and Forensic Sciences
      National Institute of Justice

      Portia Graham
      Office Director. Office of Operations
      National Institute of Justice

      Charlene Hunter
      Program Analyst
      National Institute of Justice

      Charles Heurich
      Physical Scientist
      National Institute of Justice

      Steve Schuetz
      Physical Scientist
      National Institute of Justice

      Alan Spanbauer
      Physical Scientist
      National Institute of Justice




                                              34

cc:   Robert Listcnbce
      Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Chyrl Jones
      Deputy Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Amy Callaghan
      Special Assistant
      Office of Juvenile Justice and Delinquency Prevention

      Lou Ann Holland
      Grant Program Specialist
      Office of Juvenile Justice and Delinquency flrevention

      Leigh A. Benda
      Chief Financial Officer

      Christal McNeil-Wright
      Associate Chief Financial Officer
      Grants Financial Management Division
      Office oftbe Chief Financial Officer

      Jerry Conty
      Assistant Chief Financial Officer
      Grants Financial Management Division
      Office of the Chief Financial Officer

      Lucy Mungle
      Manager, Evaluation and Oversight Division
      Grants Financial Management Division
      Office of the Chief Financial Officer

      Richard P. Theis
      Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OlP Executive Secretariat
      Control Number 11'20140310090751




                                                35

                                                                                                         APPENDIX 4

THE NATIONAL FORENSIC SCIENCE TECHNOLOGY CENTER
         RESPONSE TO THE DRAFT REPORT 17



 nfstc~
 ...."-'''--_.............,c._·
 '~·'f~~·f    ,'·R"'"    Il'r'~·,




7881 1.14t h Ave nue N orth
L<'Irgo, FL 33773
ph (7 27) 549-6067
fx (7l7) 549-6070
Www        oEste   Oeq



TO,            Fe rris B. Polk , Reg io na l Aud it M a n age r, DIG , DOJ
               Atla nta Reg io n a l Audit Office

FROM : Kevi n L. Loth ridge, CEO              ~;ft~
DATE : Marc h 7. 20l.4

RE :           NFSTC RESPONSES TO DIG RE COMMENDATIONS

Encl ose d you w ill find N FSTC's responses t o the r ecom mendation s prov ide d by DIG in t h e a udit
draft re port date d Fe bruary 2, 2 014. NFSTC respectfu lly s ubm it s t h ese resp o nses a n d s upporting
d oc ume nta ti o n t o resolve a n y o utst a nding qu estio ns tha t m ay b e prese nt .

Res p o n se summa r y:
 O I G Re commend a t i on:                                                                       NF ST C :
 1.        Ensure th at th e NFSTC establishes controls to adequa tely secure grant -             Does n o t concur
           fu n ded equipment.
 2.        Ensure the N FSTC updates its asset list to ensure t h a t locations for DOJ           Concurs
           qrant funded accoun table property a re identified accurately.
 3·        Remedy t he $105,778 in unreasonable questioned costs for retr o a ct ive pay          Does n o t co n c ur
           that the NF STC provided based on reevaluations of employee job
           descriptions.
 4·        Ensure th at th e NFSTC establishes con trols to ensure proper segregation of          Concurs
           duties for i ndividuals assigned to recommend salary increases paid wi t h
           qrant- funds.
 5·        Ensure tha t the NFSTC establishes con trols to perform rout ine updates to            D oes n o t co n c u r
           budget analyses of actua l exp endi tu res to approved budget categories to
           en su re correction s a nd adjustment s are conside red .
 6.        Ensure th at t he N FSTC establishes controls to track cumu la tive transfers of       D oes n o t co n c u r
           grant f unds within budget categories.
 7·        Ensur e t hat the NFSTC accurately reports p rogress on the grants in the              D oes n o t co n c u r
           semi ann ual prOQ ress reports.
 8.        Ensure t hat the NFSTC mai n tains complete and accu rate documentation                D oes n o t concur
           su pporting all training courses held including sign-in shee t s wi th full dates.
 9·        Ensure that th e N FSTC obtain s approvals f or all sole source contracts              Concurs
           greater th an $"100,000 . The so le source approval sh o uld a p p ly to a ll grants
           used to pay the contract costs
 10.       Remedy t he $744,395 in unallowable question ed costs from the t ra nsfer of           Concurs
           funds from grant 20oo- RC - CX- Kool. to 2006- MU - 8X-Ko02 .


      17
        In the NFSTC’s detailed response to the recommendations contained in this appendix, references are
      made to attachments. Those attachments consisted of 430 pages and are not included here because of
      the length of those documents. In addition, the colored text in this appendix was contained in the
      documents provided by the NFSTC.


                                                               36

OIG Draft Audit Report
Recommendation #1                                                         NFSTC Response



 Recommendation #1:

Ensure that the NFSTC estabtishes controls to adequately secure grant-funded
equipment.

NFSTC's Response:

The National Forensic Science Technology Center, Inc. ("NFSTC") does not concur with
the OIG's Recommendation #1 .

NFSTC understands the need for asset control at all levels and has always maintained
a we ll~secured facility. This excellent record was recognized when NFSTC was awarded
a "Top Secret" facility clearance by the U.S. Defense Security Service (DSS).

Asset control:
NFSTC facilities and assets are controlled using a key card system for all areas beyond
the lobby. Because of this, all NFSTC assets, fixed or non-fixed, remain secured .
Ad ministrative and executive offices, company files , copy and fax machines, office
supplies, tra ining rooms , and video production studios, are housed in the area beyond
the main lobby area. Although individuals have the ability (keys) to lock their offices
and/or their desks, neither offices nor desks are commonly locked in this area because
of the building 's security controls.

Non-fixed items referenced by OIG on pages 12 and 13 lack sufficient detail such as
item name, inventory number, search date and location of the items. NFSTC's ability to
respond is hampered by this lack of specificity, however, the following information details
property control/records that apply to all NFSTC assets:

Capitalized property and equipment are recorded in a property register. NFSTC utilizes
the Sage Fixed Asset System (FAS) for this purpose. This register includes the following
information :
       a.     Date of acquisition
       b.     Cost
       c.     Description (i.e. color, model, serial number, other identifying information)
       d.     Depreciation method
       e.     Estimated useful life

A physical inventory of capitalized assets is conducted periodically at the discretion of
the Director of Finance or the Finance Supervisor. The physical inventory is reconciled
to the property log and adjustments made as necessary. All adjustments resulting from
this reconciliation are approved by the Director of Finance. NFSTC's annual inventory
is reconciled to FAS Inventory, and reviewed as part of the annual external audit by a
CPA firm.

Items listed in the inventory and not found to be where there were last documented by
the inventory are usually being used by an employee for a specific purpose or project.
After use, the items are returned to their normal storage place.


For Official Use Only
FO( Official Use Only




                                            37

 OIG Draft Audit Report
 Recommendation #1                                                                  NFSTC Response



 NFSTC currently has 168 asset items and 1,700 items in inventory which are all labeled
 and tagged with bar coding for inventory purposes. The items are stored in secured
 locations. Reference "Asset Inventory Transfer Tracking Form", attached.

 Regarding non-fixed items referenced by OIG on pages 12 and 13:

       1. NFSTC does not consider the portable audio player cited in the OIG's Draft
          Audit Report (page 13, third bullet) as having been unsecured due to the access
          controls for the building . The player was not referenced with regard to make,
          model , inventory tag number or office location, so it is likely that the item
          referenced was the personal possession of an employee or visitor. NFSTC does
          not routinely check the desk drawers of its employees or those in offices that are
          not occupied.

            The nature of work performed by NFSTC requires quality assurance testing on
            various devices and multiple operating systems. Employees often donate use of
            their own personal devices as part of the QA process , so personal equipment in
            the NFSTC facilities would not be considered unusual.

                                                          the bottom of page 12 was
                                                           assigned the tablet_
                                                          "~In n (lint' v Man age r:'i'Or"i!i'Ei
                                    an                 I                   Updates". NIJ
            Program M a n a g e r _ requested the updated guidelines be made
            available for use a~ch require formatting and testing via multiple
            systems. _         was authorized to use the tablet for this project.




Facility access:
NFSTC designed a perimeter control system that forms a credible deterrent to visitors
and employees alike to prevent the transfer of material without proper authority. This
system is maintained to:

1.    Deter and detect the unauthorized introduction of material (classified and
unclassified) into NFSTC.



For Official Use Only                                                                              2
J="or Offi cIal Use Only




                                                   38

 DIG Draft Audit Report
Recommendation #1                                                      NFSTC Response



2.    Deter and detect the unauthorized removal of material (classified and
unclassified) material from NFSTC. Reference Figure 1.

FIGURE 1: DIAGRAM OF MAIN OFFICE BUILDING

Key card access points noted .




For Official Use Only                                                              3
For Official Use Only




                                          39

 OIG Draft Audit Report
 Recommendation #1                                                                NFSTC Response



                                                 access control s y s t e m , _
                                                  that helps prevent una~
                                                access requirements are posted at the
 front and back entrances of the building . Reference Figures 2 and 3 below:

                                                            '-,,' ,




                                                              "      ?, ; \~',\ .~ "1' ,
                                                   Figure 3: Back Door Building Access


Upon gaining access to NFSTC, visitors are required to check-in by presenting proper
identification (with a picture). Once the ID has been verified, visitors are provided with
an NFSTC visitor ID badge which must be worn and displayed at all times while they
are on the premises. Reference figure 4 below:




At the end of each business day, the badges are returned to the proper NFSTC
representative.



For Official Use Only                                                                         4
For Official Use Only




                                            40

 OIG Draft Audit Report
 Recommendation #1                                                             NFSTC Response




 Depending upon the requirements for
 Card      with their visitor ID oa,ag"s.

                                                                     I
                           the card in case it is lost, stolen , or damaged.

 Representatives from U.S. Government agencies, acting in their official capacities as
 inspectors, auditors , or investigators and upon presentation of their U.S. Government
 credentials, may visit NFSTC without advance notification. NFSTC maintains an official
 record of all incoming classified and unclassified visits. The record includes the visitors'
 name , name of activity represen tative , and the date of the visit.


 SEE ATTACHMENTS:

      1.    NFSTC's 'Top Secret" designation
      2.    Asset Inventory Tracking Form
      3.    NFSTC's Security, Safety, and Access Guidelines
      4.    NFSTC's Standard Practice Procedures for Security Services
      5.    NFSTC's New Visitor Briefing
      6.    Email request for e-book formats




For Official Use Only                                                                       5
fo"or Offi cial Use Only




                                                        41

OIG Draft Audit Report
Recommendation #2                                                            NFSTC Response



Recommendation #2:

Ensure the NFSTC updates its asset list to ensure that locations for DOJ grant
funded accountable property are identified accurately,

NFSTC 's Response :

The National Forensic Science Technology Center, Inc. ("NFSTC") concurs with the
OIG 's Recommendation #2 .

NFSTC confirms that it does, and will continue to , routinely update its asset list to
ensure that locations for all items, including DOJ grant-funded property are accurate.
As demonstrated in NFSTC's response to OIG Recommendation #1 , NFSTC properly
identifies all assets by including the following information in the Sage Fixed Asset
System (FAS):

     • Date of acquisition
     • Cost
     • Description (i.e. color, model , serial number, other identifying information )
     • Depreciation method
     • Estimated useful life

NFSTC has a procedure in place to track the transfer of items. Upon conducting a
physical inventory of capitalized assets, items w ill be returned to their proper location if
they are not being used for a specific project . NFSTC's annual inventory is reconciled to
FAS Inventory , and re viewed as part of the annual external audit by a CPA firm.

ATTACHMENTS :
Asset Inventory Tracking Form
Asset Tracking screenshot from Sage Fixed Asset-Premier
Fixed Asset screenshot from Sage




For Official Use Only
For Official Use Only




                                              42

OIG Draft Audit Report
Recommendation #3                                                         NFSTC Response



Recommendation #3:

Remedy the $105,778 in unreasonable questioned costs for retroactive pay that
the NFSTC provided based on reevaluations of employee job descriptions.

NFSTC's Response:

The National Forensic Science Technology Center. Inc. ("NFSTC") does not concur with
the OIG's Recommendation #3.

It is a standard business practice for companies to review employee positions, job
descriptions, and rates of pay in order to maintain their competitive status in the job
market. NFSTC is committed to paying its employees equitable wages that refiect the
requirements and responsibilities of their positions and are comparable to the pay
received by similarly situated employees in other organizations in the area.

NFSTC does not concur that the activity was unreasonable , but understands the
potential for misunderstanding. In the future, NFSTC will no longer apply retroactive pay
increases beyond 30 days.

The process NFSTC uses for job and compensation analysis is based on the Office of
Personnel Management's Point Factor System and was modified for NFSTC use by an
external consultant, _                  a certified Compensation Specialist in 2005. The
analysis for NFSTC'~urces Director's job category and salary were
performed by the Sr. Human Resources Generalist, whose primary responsibility
includes job analysis for all position responsibilities and compensation alignment, in
partnership with the HR Director, then sent to the Executive staff for their independent
review and evaluation . It is within the HR Director's job scope to prepare evaluations
and recommendations of this type for all staff, and NFSTC Executives use the point
factor tools to evaluate each recommendation independently before approving or
denying.

NFSTC makes the following statement in its Compensation Administration Policy' :

        "NFSTC's Compensation Administration Program serves to establish consistent
        pay practices, comply with Federal and State laws, and mirror the organization's
        commitment to Equal Employment Opportunity. NFSTC offers a compensation
        plan based on the U. S. Office of Personnel Management's Federal Salary Tables
        with the exception of those highly skilled occupations where to recruit the
        necessary talent NFSTC would have to offer competitive salaries based on the
        prevailing wages within the area for those fields. Recruitment and retention of
        talented employees is critical to the success of the organization.

        Compensation levels are based on an assessment performed by the employee's
        supervising manager and the Unit Manager of Human Resources. Final approval

1   Reference Attachment NFSTC's Compensation Administration Procedure.


For Official Use Only




                                              43

O/G Draft Audit RepOff
Recommendation #3                                                                       NFSTC Response



          of compensation levels are conducted by the Executive Team . NFSTC 's total
          salary budget is reviewed and approved by the organization's Board of Directors
          on an annual basis."

NFSTC's Compensation Administration Procedure includes the following guidance:

          "When a position 's scope (including complexity, responsibility increase/decrease,
          etc.) is adjusted due to organizational requirements, or when information is
          provided that a substantive position scope change has been demonstrated as a
          change of responsibilities for a period greater than six months, then a position
          may be re-evaluated to determine if the position 's required factor degree point
          values equate to a higher grade or ste~in-grade2 (must be demonstrated as a
          change of responsibilities of twenty percent or more for consideration).
          Evaluation for adjustments is determined by review of point factor degrees and
          requires completion of the established process for defining a new position
          description. Requests for evaluation may be made by an employee to their direct
          supervisor or the unit manager responsible for Human Resources. The unit
          responsible for human resources will conduct an evaluation of all positions every
          two years ." Reference Attachment: Compensation Administration Policy.

Due to the extremely fast-paced growth of the NFSTC 's staffing levels which were
required to support the delivery of grant-funded activities, NFSTC was delayed in
completing these evaluations within the two year period. Once they were completed,
NFSTC chose to make these adjustments retroactive in order to ensure equitable
treatment of its employees who had performed the work at those levels without formal
recognition.

Per the OCFO's 2011 Financial Guide 3 , ·Compensation for Personal Services - Limit on
Use of Gran t Funds for Salaries of Grantee's Employees~ - no salaries paid with grant
funds exceeded 110% of the annual salary payable to someone at the Federa l
Governments' Senior Executive Service (SES) level.

The OCFO's 2011 Financial Gu ide provides additional information about specific factors
that affect whether costs are allowable for Nonprofit Organizations in Title 2 CFR Part
230 which provides the following guidance:

          "8. Compensation for personal services. a. Definition. Compensation for personal
          services includes all compensation paid currently or accrued by the organization
          for services of employees rendered during the period of the award (except as
          otherwise provided in subparagraph 8.h of this appendix). It includes, but is not
          limited to, salaries, wages, directors and executive committee member's fees,
          incentive awards, fringe benefits, pension plan costs, allowances for offsite pay,
          incentive pay, location allowances, hardship pay, and cost of living differentials.


2   NFSTC uses the OPM's RUS Tables for grading positions and la oo r categories
3   201 1 OCFO Financi al Guide used as a reference because this audrt began in 201 1


For Official Use Only                                                                               ,




                                                    44

O/G Draft Audit RepOff
Recommendation #3                                                            NFSTC Response


           b. Allow-ability. Except as otherwise spedfically provided in this paragraph,
           the costs of such compensation are allowable to the extent that:

               (1) Total compensation to individual employees is reasonable for the
                   services rendered and conforms to the established policy of the
                   organization consistently applied to both Federal and non-Federal
                   activities: and
               (2) Charges to awards whether treated as direct or indirect costs are
                   determined and supported as required in this paragraph.

           c. Reasonableness.

               (1) When the organization is predominantly engaged in activities other
                   than those sponsored by the Federal Government, compensation for
                   employees on federally-sponsored work will be considered reasonable
                   to the extent that it is consistent with that paid for similar work in the
                   organization·s other activities.

               (2) When the organization is predominantly engaged in federally­
                   sponsored activities and in cases where the kind of employees
                   required for the Federal activities are not found in the organization 's
                   other activities, compensation for employees on federally sponsored
                   work will be considered reasonable to the extent that it is comparable
                   to that paid for similar work in the labor markets in which the
                   organization competes for the kind of employees involved. Special
                   considerations in determining allow-ability. Certain conditions require
                   special consideration and possible limitations in determining costs
                   under Federal awards where amounts or types of compensation
                   appear unreasonable. Among such conditions are the following:

                   (1) Compensation to members of non-profit organizations. trustees,
                       directors, associates. Determination should be made that such
                       compensation is reasonable for the actual personal services
                       rendered rather than a distribution of eamings in excess of costs.
                   (2) Any change in an organization's compensation policy resulting in a
                       substantial increase in the organization·s level of compensation.
                       particularly wh en it was concurrent with an increase in the ratio of
                       Federal awards to other activities of the organization or any change
                       in the treatment of allow-ability of specific types of compensation
                       due to changes in Federal policy"

NFSTC's compensation is fair and reasonable and consistent with wages paid in similar
and competing Job markets. Almost every position has market rate analysis in addition
to the Point Factor Evaluation (PFE) analysis. NFSTC's rates were in-line or slightly
below market rate on average for the majority of positions during this period. Per Tille 2



For Official Use Only                                                                           3




                                             45

O/G Draft Audit RepOff
Recommendation #3                                                        NFSTC Response



CFR Part 230, NFSTC 's compensation policy is reasonable and conforms to
established company policy.

NFSTC submitted and received approval for the following Grant Adjustment Notices
detail ing personnel changes and adjustments:




The budget modifications included updated salary data and job category for each
position funded by the award. The Grant Adjustment Notices were all approved.
Reference Attachments: Approved GANs.

All NFSTC responses to subsequent OJP solicitations included budgets that renected
the adjusted personnel descriptions and associated salaries. NFSTC received the
following FY09 , FY10, FY11 , and FY12 awards which all included the updated
personnel data (position descriptions, role, sa lary , and fringe data) :

          Fiscal Year            NFSTC AWARD #               Pm ram Office
             FY09                2009-0N-BX-K197                 NIJ
             FY09                2009 ON BX K19S                 NIJ
             FY09                2009 ON BX K223                 NIJ
             FY09                2009-01-8X-K028                 BJA
             FY09                2007-MU-8X-KOO8                 NIJ
             FY09                 2007-IJ-CX-K028                NIJ
             FY10                2010 ON BX K210                 NIJ
             FY10                2010-MC-CX-K063                OJJDP
             FY10                2010-DO-8X-KOO9                 BJA
             FY10                2010-DN-8X-K265                 NIJ
             FY10                20tO-ON-8X-K266                 NIJ
             FY11                2010-MC-CX-K063                OJJDP
             FY1 1               2011-DN-8X-K568                 NIJ
             FY11                2011-DN-8X-K571                 NIJ
             FY12                2010 MC CX K063                OJJ DP


NFSTC's Human Resources area consists of three (3) positions that include the
Director of Human Resources and two (2) Sr. HR Genera lists. The Director of Human
Resources was involved in the evaluation process as a whole for all affected staff,


• Reference details provided in GJI.N for 2008·MU·M U·KOO3


For Official Use Only                                                                 4




                                                 46

OIG Draft Audit Report
Recommendation #3                                                    NFSTC Response



including her own job category and job description in partnership with the Sr. Human
Resources Generalist; the resulting recommendation was then independently evaluated
and concurred by the Executives . The Sr. Human Resources Generalist was available
to answer questions and provide additional information to the Executives during this
review . Reference Attachment: Director of H/ R Job Evaluation and Appro val.

Attachments:
    Compensation Administration Procedure
    Compensation Administration Policy
    GAN Data
    2008-MU-MU-K003 GAN Details
    Director of HR Evaluation and Appro val




For Official Use Only                                                              5




                                         47

Recommendation #4:

Ensure that the NFSTC establishes controls to ensure proper segregation of
duties for individuals assigned to recommend salary increases paid with grant­
funds.

NFSTC's Response:

The National Forensic Science Technology Center, Inc. ("NFSTC") concurs with the
OIG's Recommendation #4.

NFSTC understands that there is potentia l for misunderstanding and has put processes
in place that allow for the separation of duties and responsibilities with regard to job and
salary evaluations and reviews. In addition, as per Recommendation #3 , NFSTC will no
longer apply retroactive pay increases beyond 30 days.

NFSTC is a small organization consisting of a total of 42 full -time regular employees.
To the extent poSSible, and wherever it makes sense, NFSTC has always segregated
pertinent job duties and responsibilities. NFSTC abides by this practice and is assessed
annually on this point by the independent Certified Public Accounting firm of l ewis,
Birch , and Ricardo , llC during the organization's annual audit which also serves as its
A-133 Single Point Audit.

The process NFSTC uses for job and compensation analysis is based on the Office of
Personnel Management's Point Factor System and was modified for NFSTC use by an
external consultant, _ _ , a certified Compensa tion Specialist in 2005 . The
analysis for NFSTC ~u rces Director's job category and salary were
performed by the Sr. Human Resources Generalist, whose primary responsibility
includes job analysis for all position responsibilities and compensation alignment, in
partnership with the HR Director, then sent to the Executive staff for their independent
review and evaluation. It is within the HR Director's job scope to prepare evaluations
and recommendations of this type for all staff, and NFSTC Executives use the point
factor tools to evaluate each recommendation independently before approving or
denying.

The analysis in question was re viewed and approved by the organization's Chief
Operations Officer, who directly supervised the Human Resources Director, and his
decision was confirmed by the Chief Executive Officer.

Attachments
    NFSTC Compensation Administration manual
    PFE Manual and communications
   GAN Data




For Officilll U. e Only




                                            48

O/G Draft Audit RepOff
Recommendation #5                                                        NFSTC Response



Recommendation #5 :

Ensure that the NFSTC establishes controls to perform routine updates to budget
analyses of actual expenditures to approved budget categories to ensure
corrections and adjustments are considered.

NFSTC's Response:

The National Forensic Science Technology Center, Inc. (" NFSTC ") does not concur with
the DIG's Recommendation #5.

Throughout its history with all OJP awards, NFSTC has maintained a database with
actual and budgeted expenditures. The approved budget category amounts are updated
based on information contained in the most recent approved budget modification Grant
Adjustment Notice (GAN) for each award . Actual expenditures are maintained daily and
reported directly from the accounting system , including any adjustments that have been
made .

Expenditures are grouped based upon the Government's A through I expense
categories (i.e. A-Personnel, B-Fringe Benefits, C-Travel , D-Equipment , E-Supplies, F­
Construction , G-Contractua l, H-Other, and I-Indirect). The actual expense detail for
each grant is maintain monthly and is cumulati ve for each of the expense categories.
The actua l expenses are then compared to the most recent approved budget amounts.

Variances are renected, positive or negative , for each category of expense. Over the
period of the audited awards, the policies and procedures surrounding the budget
management process remained consistent, however one change that could impact the
reporting of actual costs versus approved budget categories is NFSTC's financial
closing process. At one point, the organization 's financial books were closed on a
quarterly basis however, they are now closed monthly. Hence, it is highly possible ,
depending upon the selected interim period that may have been tested by the DIG
auditors tha t the sampled accounting data may have differed from budget actual data

There are controls within NFSTC's accounting system to verify the accuracy of all data
reported. One ofthese controls is the organization's external annual audit. This annual
audit is performed by an independent firm of Certified Public Accountants who
specialize in audits involving cooperative agreements and other government awards.
The annual external audit is performed by independent CPAs and includes a
reconciliation of each award using NFSTC's spreadsheet budget and actual data . This
information was made available to the DIG audit staff.

Attachment:
Financial Status Reports (FSR) Reconciliation




                                     For Off,ciai Use Only




                                             49

OIG Draft Audit Report
Recommendation #6                                                         NFSTC Response



Recommendation #6:

Ensure that the NFSTC establishes controls to track cumulative transfers of grant
funds within budget categories.

NFSTC 's Response :

The National Forensic Science Technology Center, Inc. ("NFSTC") does not concur with
the OIG 's Recommendation #6.

The attached schedule is taken directly from Lewis Birch & Ricardo , CPAs 2011 audit
work papers of NFSTC. For each award all costs and related audit adjustments are
reconciled between the NFSTC General Ledger and the financial status reports. The
CPA firm also reconciled the budget categories (A through I) for each award .

Unallowable costs are separately reflected on the reconciliation . The first two columns
are for other NFSTC contracts not requiring Financial Status Reports. The references
noted in red are indexes for other audit work files.

Similar documentation was made available to OIG Auditors.


Attachment:
Financial Status Reports (FSR ) Reconciliation




                                      Fa Official Use Only




                                             50

O/G Draft Audit RepOff
Recommendation #7                                                           NFSTC Response



Recom mendat ion #7:

Ensure th at the NFSTC accurat ely repo rt s prog ress on the grants in the
semia nnua l p rog ress report s.

NFSTC's Response:

The National Forensic Science Technology Center, Inc. ("NFSTC") does not concur with
the DIG's Recommendation #7 .

NFSTC ma intains accuracy in its sem iannual programmatic reports and meets, if not
exceeds, programmatic objectives and reporting requirements. In each of the awards,
reporting requirements did not include or stipu late that sign-in sheets would be used as
a performance measurement to determine program success. NFSTC's reports were
received and approved by program managers in every case .

Details of the measurement requirements for awards from 2008-20 11 are below.

Program Performance and Accomplishments
OJP Solicitation ReqUirements

From 2008 to 2011 , NFSTC responded to solicitations issued by various bureaus within
OJP to support forensic science tra ining initiatives. The solicitations set forth specific
goals, objectives, and performance measures designed to help make training and
training resources available to the Justice community. NFSTC's proposa l responses
addressed how it would meet the goals, objectives, and performance measures.
Performance metric andlor survey data was provided in the semi-annual reports to the
appropriate OJP Bureau (NIJ , BJA , OJJDP , etc.) , that detailed how those objectives
were met, but report contents such as sign in sheets were not indicated as a
requirement.

Stated Program Requirements

2008 OJP Training Solicitation Objectives

Page 7 of the 2008 OJP Training Solicitation entitled , "Forensic Science Training
Development and Delivery Program " (SL #000829; 2008-N J     J-1746) includes the
following table of objectives:

            Objecti ve            Performance Measures         Dat a Grantee Provide s
 To increase the number of       1 The number of forensic     1 A description of the relevant
 relevant no-cost training         science personnel            training provided to the
 opportunities provided to the     successfully completing      forensic community
 forensic community                developed or delivered
                                                              2.The number of forensic
                                                                science personnel



For Offici.1 U.e Only




                                              51

O/G Draft Audit RepOff
Recommendation #7                                                                     NFSTC Response


                                      tm ining, or both, under this      successfulty completing the

                                  ,   solicitation.
                                      The percent of forensic
                                      science personnel
                                                                         developed/delivered train ing
                                                                       3.The number of forensic
                                                                         science personnel w ho felt
                                      participating in the train ing     the train ing was relevant to
                                      who felt that the training was     the ir needs.
                                      relevant to their needs


NFSTC was awarded four (4) FY08 Training awards:

    .2008-DN-8X-K072
    . 2008-DN-8X-K073
    . 2008-DN -8X-K186
    .2008-DN-8X-K201

The semi-annual and final reports for each award listed above include spreadsheets 1
that capture all the required pe rformance metric data . This data thoroughly
demonstrates the objectives for the training programs were met and in most cases,
exceeded. The spreadsheets captured and provided the following data:

     • Course Assessment
     • Populat ion
        • Course Name
        • Date
        • Number of Applicants
        • Number of Qua lified Applicants
        • Number of Intended Participants Outlined in Proposal
           Number of Actual Participants
        • Hours of Instruction
        • Total Hours of Instruction «Number of Actual Part icipants) x (Hours of
           Instruction»
        • Continuing Education Credits
        • CEU Accrediting Organization
           Number of Participants that Pass the Course or Receive a Certificate
     • Geograph ical Data
        • Course Name
        • Date
        • Actual Participants
        • Number of Tribal PartiCipants
           Number of States Represented
        • Number of Counties Represented
        • Number of Organization Represented
     • Technology
        • Course Name


, The Spreadsheets we re provided try the Program Office. Reference AtIachmenl1



For Offici.1 U.e Only




                                                  52

O/G Draft Audit RepOff
Recommendation #7                                                                   NFSTC Response


        • Date
        • Training Format
        • W eb Access
        • How long is it Available?
        • WII it be available to General Public for Free?
        • Traffic Information (Av erage Number of Hits per W eek)
        • Is it compatible with mobile devices?
     • Roster
        • First Name
        • Last Name
        • Organization
        • City
        • State
        • Zip
        • Phone
        • Email
        • Discipl ine

The reports w ere all rev iewed , accepted, and appro ved by the Program Manager.

2009 OJP Training Solicitation Objectives

At the top of page 9, of the 2009 OJP Tra ining Solicitation entitled, ~Forensic Science
Training Development and Delive ry P rogram" (SL #000855 ; NIJ-2oo9--1942) includes
the follo wing table of obj ecti ves:

            Obj ec ti ve          Performance Measures                Data Grantee Prov ides
 To increase the number of       1 The number of forensic            1 A description of the relevant
 rel evant no-cost training        science personnel                   training provided to the
 opportunities provided to         successfully com~eting              forensic community.
 forensic science and criminal     developed or delNered
 justice practitioners and         training, or both, under this     2.   The number of forensic
                                                                          science personnel
 policymakers                      solicitation
                                                                          successfully com~eting the
                                 2 The percentage of forensic             developed/delivered
                                    science personnel                     tra ining.
                                    participating in the train ing
                                    who felt the training was        3. The number of forensic
                                                                        science personnel who fe~
                                    relevant to their needs
                                                                        the training was relevant to
                                 3 Quality of management as             their needs
                                   measured I:>f whether
                                   si gnificant interim project
                                   milestones were achieved,
                                   final deadlines were met, and
                                   costs remained w~ h i n
                                   approved limits


NFSTC was awarded three (3) FY09 tra in ing a w ards:




For Offici. 1 U. e Only




                                                 53

O/G Draft Audit RepOff
Recommendation #7                                                                            NFSTC Response



     . 2009-DN-8X-K197
     . 2009-DN -8X- K198
     . 2009-DN -8X- K223

As with the previous year's reporting requirements, the semi-annual and final reports for
each award listed above included spreadsheets that captured the required performance
metric data. Again , this information thoroughly demonstrates the objectives for the
training programs were achieved. The spreadsheets captured and provided the same
data referenced above for the 2008 OJP Training Solicitation Objectives.

The reports were all accepted, re viewed, and approved by the Program Managers.

2010 OJP Training Solicitation Objectives

Page 8, of the 2010 OJP Training Solicitation entitled , "Forensic Science Training
Development and Delivery Program " (SL #000907) includes the following table of
objectives:

               Ob'ective                 Perfo rmance Measures                  Data Grantee Prov ides
 To increase the number of no-       1    The number of Sta te and         1     A descril=tion and dates of
 cost training opp:>rtunrties for         local forensic science (and            the relevant training
 State and local forensic sc ience        other State and local                  provided to the forensic
 practitioners and State and local        crim inal justice) personnel           community and its
 crim inal justice partners               who successfully complete              effectiveness.
                                          the t ra ining courses
                                                                           2.    The number of State and
                                          developed and delivered
                                                                                 local fo rensic science (and
                                          under this solicrtation.
                                                                                 othe r State and local
                                     2 The percentage of State and               criminal justice) personnel
                                          local forensic science (and            who successfully com~ ete
                                          other State and local criminal         the developed/delivered
                                          justice) personnel                     tra ining
                                          participating in the tra ining
                                                                           3. The number of State and
                                          who felt the training was
                                                                                 local fo renSic science
                                          relevant to their needs
                                                                                 partiCipants who fe lt the
                                     3 Quality of the delivered                  tra ining was relevant to the ir
                                          training COlHses as                    needs.
                                          measured I:>f students,
                                          subject matter experts, and
                                                                           4. Quarterly financial reports,
                                                                                 semi-annual progress
                                          possible evaluation I:>f NIJ.
                                                                                 reports, and a fina l progress
                                     4 OJality of management                     report
                                          measured I:>f successfully
                                                                           5.    For courses developed with
                                          meeting significant interim
                                                                                 NIJ funds, the final report
                                          p roject milestones, final
                                                                                 must be accompanied I:>f
                                          deadlines, and costs that are
                                                                                 hard and electron ic copjes
                                          within the approved limits
                                                                                 of all t raining materials. For
                                                                                 electronic-based COlHSes
                                                                                 (browser, compute r, and
                                                                                 video -based training), this
                                                                                 includes a master co        , II




For Offici. 1 U. e Only




                                                      54

O/G Draft Audit RepOff
Recommendation #7                                                                         NFSTC Response


                                                                             sou rce codes, and
                                                                             supporting files and
                                                                             documenrn tion


The FY10 solicitation issued by the Office of Juvenile Justice and De linquency
Prevention (OJJDP) ent itled, "OJJDP 2010 Internet Crimes Against Children Program
Support' lists the following objectives on page 7 of the sol icitation.




      ~~:~~~~:,"!:~i:~:~.
                                                                       grantee perfo rmance mea sures
 technical                                                             data reporting. To access, see
 th.
 to OJJDP, to I                                                        (httD I/oUdD ry,; jrs (Jov{Qr8otees/Dm)
 and othe r service providers
 The deliverables (technica l                                          During the reporting period:
 assistance, meeting a nd
 confe rence support, and
 information management)
 should be directed toward t he
 conti nuation, expansion, and
 enhance ment of DOJ's ICAC


                                  assistance requests rece ived.       req uests received.
                                                                 , I
                                  developed.                           developed.

                                                                 "
                                                        , ,                                     , ,
                                  incre ased                           i                      the
                                  program area.                        prog ram area (determined bot pre­
                                                                       and post- testin g)
                                                          Ii I                                  Ii i
                                  changed, improved, or                changed, improved, o r rescinde d
                                  resc inded
                                                                                       i i
                                                                       receive       and technica l
                                                                       assistance.
                                                                       Number of those served bo;
                                                                       grantee.


NFSTC was awarded three (3) FY10 tra ining awards:

     . 2010-DN-8X-K265
     . 2010-DN-8X-K266
     . 2010-MC-CX-K063




For Offici.1 U. e Only




                                                  55

O/G Draft Audit RepOff
Recommendation #7                                                           NFSTC Response



The semi-annual and final reports for awards 2010-DN-BX-K265 and 2010-DN-BX­
K266 included the same spreadsheet performance metric data as the ones in previous
years. As with the other reports, this data thoroughly demonstrates the objectives for
the training programs were ach ieved. The information provided data for both online and
onsite training formats.

The semi-annual and final reports for award 2010-MC-CX-K063 included participant
survey data that provided feedback on the follo wing topics:

     • Survey Overview
        • Number of drop-outs
        • Number of completions
     • Instructor kno wledge in subject matter
     • Opportunity to learn specialized software with hands-on activities
     • The impact of the training programs' practical exercises
     • Classroom material
     • Improving the online learning experience
     • ways to improve the course
     • Other areas of training interests
     • ways to improve class environment

Underreporting of Attendance

The Program Performance and Accomplishments section of the OIG's Draft Audit
Report (page 23 , paragraph 3), references attendance numbers being underreported for
three (3) training sessions. The report does not provide details regarding the specific
training programs or award numbers however, NFSTC is aware of training sessions for
its OJJDP ICAC program (award number 2010-MC-CX-K063) where onsite participants
made spur-of-the-moment requests to "sit-in on the tra ining".

The ICAC training program is delivered at various law enforcement agency facilities
across the United States to make the training more accessible to those local agencies
and to help reduce the impact of long distance travel expenses on agency budgets.
The courses require participants to pre-register so class capacity (up to 20 participants)
can be managed . The participants who made a "last minute decision" to participate
were not enrolled in the training sessions and were not included in the official course
participant count. Because of NFSTC's dil igence in managing the budget for the
FY2011 Program , NFSTC was able to provide 2 additional classes for 40 more
participants than was originally projected.

During a conference call with the OIG on August 26, 2013, NFSTC was informed that a
potential finding may result from the "underreporting" of attendees associated with
award 201 O-MC-CX-K063. NFSTC addressed this matter with the award 's Program
Manager (Ms. Lou Ann Holland) and submitted a re vised final report on September 20,
2013. Reference Attachment 2: Email Concerning OJJDP Report.




For Offici.1 U. e Only




                                            56

O/G Draft Audit RepOff
Recommendation #7                                                                           NFSTC Response


2011 OJP Training Solicitation Objectives

The top of page 9, of the 2011 OJP Tra ining Solicitation entitled, "Forensic Science
Training Delivery and Research Program" (SL #000949; NIJ-2011-2812) includes the
following table of objectives:



     no..cosllraining 0P\Xlrtunilies       the field as measured by            relevant tmining provided to
     to forensic science and               wheth er the grantee's              the forensic community and
     criminal justice practitioners        substantive scope did not           its effectiveness.
                                           devial e from Ihe furKled
 2) To support targeted research                                               The number of forensic
                                           proposal or any subsequent
    of forma l and informal                                                    science personnel
                                           agency modifications to the
    forensic science training                                                  successfully completing the
                                           scope.
    progmms employed by the                                                    developed/delivered training.
    forensic science co mmunity        2   Cltiality of the tm ining or
                                                                               The number of participants
    al the Stale and local levels.         research as assessed by
                                                                               who fe lt the tra ining was
                                           peer reviewers.
                                                                               relevant to Iheir needs.
                                       3   Cltiality of management as
                                                                               Trac k 2 A final report
                                           measured by w hether
                                                                               providing a comprehensive
                                           significant interim project
                                                                               overview of the project and a
                                           mitestones we re achieved,
                                                                               detailed description of the
                                           final deadlines were met,
                                                                               project design, data, and
                                           and costs remained w ithin
                                                                               methods; a full presentation
                                           approved timits
                                                                               of scientific findings; and a
                                       4   If applicable, number Of N IJ       thorough discussion of Ihe
                                           final grant reports, NIJ            implications of the project
                                           research documents, arKl            findings for crim inal justice
                                           grantee research                    practice and policy in the
                                           documents published.                United States
                                                                           2     Quarterly financial reports,
                                                                                 semi·annua l progress
                                                                                 reports, and a final progress
                                                                                 report
                                                                           3     If applicable, each data set
                                                                                 that was collected,
                                                                                 acquired, or modified in
                                                                                 conjunct ion wrth the project.
                                                                           4     If applicable, cilalion to
                                                                                 report(s)fdocument(s) .


NFSTC was awarded two (2) FY11 training awards:

     . 2011-DN-8X-K568
     . 2011-DN-8X-K571

The associated spreadsheets captured and provided the same data referenced above
for the 2008 OJP Training Solicitation Objectives; the spreadsheet for award 201 1-DN­
BX-K568 provided information for both online and onsite training formats.



For Offici. 1 U. e Only




                                                      57

O/G Draft Audit RepOff
Recommendation #7                                                                   NFSTC Response



The reports were all accepted, re vi ewed , and approved by the Program Managers.

Addi!ionallnforma!ion
NFSTC has more than demonstrated that in all cases, training program objectives and
performance measures were met, if not exceeded . NFSTC's programmat ic
achievements have been validated by the Program Manager's acceptance of final
reports and reported performance metrics. Sign-in sheets were not an agreed upon or
required performance measurement, so using them to determined achievement of
objectives is not valid.

The follow ing awards were singled out as either having no s ign-in sheets, incomplete
training dates, or inaccurate attendance number. Here is additional information we
present concerning those awards:

       Award #              Status                                Notes
                                       1. Closeout package and fina l report reviewed, accepted, and
                                          approved by Program Manager.
2010-DN-BX-K265           losed
                                       2. Performance Measures and objectives achieved.
                                          Reference Metric Measurement Spreadsheet

                            No-Cost    OIG Draft Audit Report cites incorrect award end date of
2010-DD-BX-KOO9                        0912015 ; correct end date is 09/30/2014 .
                           Extension
                                       1. Closeout package and final report reviewed , accepted ,
                                          and approved by Program Manager.
2009-DN-BX-Kl98           losed
                                       2. Performance Measures and objectives achieved.
                                          Reference Metric Measurement Spreadsheet
                                       ,.   Closeout package and final report reviewed, accepted,
                                            and approved by Program Manager.
2009-DN-BX-K197           losed
                                       2. Perform ance Measures and objectives achieved.
                                          Reference Metric Measurement Spreadsheet
                                       Maximizing Forensic Resources was proposed but never
                                       realized. The National Public Safety Summit was agreed
2009-D1-BX-K028 C going                upon by NFSTC and the BJA Program Office and delivered on
                                       10/181 2011 - 101 2011 .
                                                        201
                                       This award was used to support 3 conferences     not training:
                                       1. NIJ Post Conviction Symposium - Attendee list provided
                                          in final report - true and accurate.
                                       2. NIJ Grant Management Summit -Attendee list provided in
2008-MU-MU-K212           losed           final report - true and accurate .
                                       3. NIJ Trace Evidence Symposium - Attendee list provided
                                          in final report - true and accurate.
                                       4. Conference dates clearly slated on attendee list and hotel
                                          contracts provided in final report




For Offici. 1 U. e Only




                                                    58

O/G Draft Audit RepOff
Recommendation #7                                                                NFSTC Response


                                  This award was for the FY08 Forensic Technologies Center of
                                  Excellence _ No training was provided under this award per
                                  the solicitation: "Forensic science training is outside the
                                  scope of this solicitation and the work of the proposed
2008-MU-MU -KOO3          losed   Fo rensic Technologies Center of Excellence ." Solicitation
                                  #SLOOO799: 2007-NIJ-1630. The o riginal solicitation was
                                  used to respond for the FY08 award as a new solicitation was
                                  not issued by OJP_
                                  1. Closeout package and final report reviewed, accepted ,
                                      and appro ved by Program Manager.
2008-DN-BX-K201 ( losed
                                  2. Perform ance Measures and o bjectives achie ved.
                                      Reference Metric Measurement Spreadsheet
                                  1. Closeout package and final report reviewed , accepted ,
                                      and approv ed by Program Manager.
2008-DN-BX-K186 ( losed
                                  2. Performance Measures and objectives achie ved.
                                      Reference Metric Measurement Spreadsheet
                                  1. Closeout package and final report reviewed, accepted,
                                      and approv ed by Program Manager.
2008-DN-BX-K073 ( losed
                                  2. Performance Measures and objectives achie ved _
                                      Reference Metric Measurement Spreadsheet
                                  1   Closeout package and final report reviewed, accepted ,
                                      and approv ed by Program Manager.
2008-DN-BX-K072 ( losed
                                  2. Performance Measures and o bjectives achie ved_
                                      Reference Metric Measurement Spreadsheet
                                  This award number was for the FY07 and FY09 Forensic
                                  Technologies Center of Excellence. No training was pro vided
                                  under this award per the solicitation: "Forensic science
2007-MU-BX-KOO8           losed   training is outside the scope of this solicitation and the work of
                                  the proposed Forensic Technologies Center of Excellence."
                                  Solicitation #SLOOO799: 2007-NIJ-1630.
                                  This was NFSTC's original training award for Pattern
                                  Evidence Training
                                  1. Closeout package and final report reviewed , accepted,
2007-IJ-CX-K233 CI        ~d          and approv ed by Program Manager.
                                  2. Performance Measures and objectives achie ved.
                                      Reference Metric Measurement Spreadsheet
                                  This was NFSTC's first BJA award (Discretionary Funding)
                                  whi ch supported:
                                  1 Homicide Investigation Symposium
2007-DO-BX-K072 ( losed           2. Medical Examiner Training - Workshop
                                  3. New Technologies Integration
                                  Projects have all been completed I objectives achieved_




For Offici. 1 U. e Only




                                              59

OIG Draft Audit Report
Recommendation #7                                                          NFSTC Response



Successful achievement of course objectives and completion all the course
requirements were corroborated by course instructors. Certificates of Completion were
issued at the end of training events for participants who successfully completed the
training (which requires daily attendance) . Certificates provide attendees' names, date
of certificate award , training hours successfully completed , and are signed by an
NFSTC Executive.

In addition to the Certificate of Completion , participants receive a letter thanking them
for their participation in the training event . In certain instances , NFSTC has provided
participant agencies with status updates as to how their employee was progressing .
Participants who did not successfully complete a training event were provided a
Certificate of Attendance only. Participants completing online course deliveries
received a Certificate of Completion if they successfully achieved 80% or above on the
online assessment.

Dates for all training events were provided in the spreadsheets; dates are one of the
factors used in calculating participant expense reimbursements.



Attachments:
Training program spreadsheets
OJJDP Report/Email




For Official Use Only




                                            60

O/G Draft Audit RepOff
Recommendation #8                                                         NFSTC Response



Recommendation #8:

Ensure th at the NFSTC maintains complete and accurate documentation
supportin g all trainin g courses held, including sign -in s heets with full dates.

NFSTC's Response:

The National Forensic Sciena! Technology Cenler, Inc . ("NFSTC") does not concur with
the DIG's Recommendation #8 .

To date, there has been no requirement for NFSTC to use sign-in sheets to document
and track training objectives. As detailed in NFSTC's response to OIG recommendation
#7 , none of the documentation requirements in the OJP solicitations, solicitation
performance measures, the OCFO Financial Guide, OJP's Conferena!s and Meetings
Reporting Guidance, and the Special Conditions provided in grant awards reference the
use of sign-in sheets. NFSTC will willingly comply with a mandate to use sign-in sheets
as a method of meeting tra ining objectives if OJP requires it.

Based upon the OIG's Draft Audit Report, it appears that NFSTC's use of sign-in sheets
has been misunderstood and in that context it may seem that it was inconsistent .
NFSTC sign-in sheets were only used for those training events that required expense
reimbursement, as detailed below. NFSTC has neve r used, nor has been required to
use, sign-in sheets as a means of tracking performance objectives.


NFSTC's Use of Sign-in Sheets

Page 23 of the OIG Draft Audit Report (Program Performance and Accomplishments,
paragraph 3) states:

       • .. .Because the NFSTC did not maintain attendance sign-in sheets for 25 training
sessions. training dates were incomplete for 19 training sessions. and attendance
numbers were under reported for 3 training sessions, we could not determine if all the
objectives were fully mel ... "

One requirement for all the work NFSTC performed under OJP grant awards has been
that services be provided at no cost to the participant , meaning that attendees who
tra vel need to be reimbursed. In 2008, NFSTC began issuing stipend checks instead of
processing individual tra vel reimbursement requests for meeting and conference
participants, and adopted the same process for training events in 2010. Stipends
provided a better means of managing the reimbursement process, which could have as
many as 300 attendees, and was also a more efficient means of managing grant funds.

NFSTC, in collaboration with Program Managers, decided to issue stipend checks to
cover partici pant event tra ve l expenses for meals, mileage, parking, baggage fees, and




Fo r Official Use Only




                                           61

OIG Draft Audit Report
Recommendation #8                                                         NFSTC Response



grou nd transportati on. The checks were processed in advance using standard rates and
were made available to attendees on the last da y of an event.

Because expenses included in the stipend were calculated in advance and were based
on the number of days of an event's duration , the criteria established for stipend
eligibility required strict daily event attendance . To ensure attendance criteria was met,
an NFSTC representati ve was present during the entire event (for on- and off-site
events) and to ensure participants signed in each day. After signing in on the last day of
the event, a participant was then eligible to recei ve the stipend check.

Participants who did not attend one (or more) day(s) of an event would not recei ve the
check that had been processed for them. Instead , the y would be required to complete
and submit a tra vel reimbursement request upon returning home. They would not be
eligible to receive the full reimbursement amount, but would only receive reimbursement
for their actual event participation expenses. The sign-in sheets referenced in the audit
report were a means of determining whether an event participant would be eligible to
receive the entire stipend amount or a lesser amount.




For Official Use Only                                                                     2




                                            62

O/G Draft Audit Report
Recommendation #9                                                                                            NFSTC Response



Recommendation #9:

Ensure that the NFSTC obtains approvals for all sole source contracts greater than
$100,000. The sale source approval should appty to all grants used to pay the contract
costs.

NFSTC's Response:

The National Forensic Science Technology Center, Inc. ("NFSTC") concurs with the DIG's
Recommendation #9. NFSTC routin ely seeks sole source approval when vendor costs
exceed the $100,000 sole source threshold . We are familiar wi th the requirement and every
attempt is made to adhere to it when warranted .

As deta iled below, NFSTC inadvertently did not submit a request for sole source approval to
use a specific vendor that had been approved just two months prior. Going forward , NFSTC
will ensure that it receives sole source approval for vendors whose services exceed the
$100,000 threshold , as required . In add ition, although the award in question is closed ,
NFSTC will submit a request for retroactive approval for JMA's services directly to the
Program Manager.

Sole Source Approval Detail

On page 28 of the DIG's Draft Audit Report (paragraph 4), DIG Auditors make the following
statement:

          · We verified that OJP provided approval for the use of sole-source event planner
          contracts under 4 of the 11 grants that were used to pay event planner costs under
          sole-source contracts over $100,000. However, the NFSTC did not obtain OJP
          approval for the use of sole-source event planner contracts for the other seven grants
          used to pay event planner costs under sole source contracts over $100 ,000:

Since the Report does not provide a list of the referenced grants, NFSTC provides the
following table, supported by the attached source documents taken directly from NFSTC's
accounting system and a summary spreadsheet which tabulates the information. Reference
Attached.


                                                                                                                       Received?




, Co All . Coope;a~ve Age"",,"t - nurrbering . .... t"'" u""d int"", . 1 by NFSTC in h accountin g softw.re to i<lentify ~ndin g soureu
                                                                       1y
OIG Aud. ors W ef~ Pfa.'ided . lis! of CoAg num t>o:rs and the as5Oeiat. d OJP award nurrbers.
' Total .lTK>Unt charll"d by JIM frem 2008 - 2011 .


    For Offici. 1 U. e Only




                                                                    63

O/G Draft Audit Report
Recommendation #9                                                        NFSTC Response




Of the fourteen (14) awards listed above, four (4) were cha rged for meeting planning services
provided by JMA Consulting, LLC ("JMA") that exceeded the $100,000 threshold for sole
source justification/approva l. Of the four (4) awards, three (3) received sole source approval
to use JMA. Reference Attached .

The sole source approval for award number 2008-MU-MU-K003 (FY08 Forensic
Technologies Center of Excellence - FTCoE) was obtained on July 17, 2009; less than two
(2) months later (September 21,2009), NFSTC was awarded the FY09 Forensic
Technologies Center of Excellence grant (2007-MU-BX-K008). Although NFSTC had just
recently (less than two (2) months) received approval to use JMA's services, the organization
did not receive sole source approval to continue using their services under the new FY09
FTCoE award even though JMA was paid in excess of $1 00,000 under the FY09 FTCoE
award . NFSTC mistakenly did not submit a request for sole source approva l for the FY09
FTCoE because of the short length of time between the last sole source approval for JMA.

Page 28 of the OIG's Draft Report contains the following statement:

        " We did not question the event planner exp enditures that were charged to the
        contracts without sole source approval because the NFSTC financial records did not
        consistently indicate to which contract each expense was applied."

The attached spreadsheets, ident ified as source documents, were downloaded directly into
MS Excel from NFSTC's accounting software. Similar documentation was provided to the
OIG Auditors. Information provided includes:

   •    Document Number (usually the Vendor's invo ice number)
   •    NFSTC's internal numbering for the cooperative agreement (Co Ag Code)
   •    Internal Project Code Number
   •    Internal Event Code (when applicable)
   •    GL Code
   •    GL Title
   •    Effective Date
   •    Debit amount
   •    Credit amount
   •    Transaction Description

OIG Auditors received information tying Co Ag codes to OJP award numbers. Every invoice
is associated directly with its funding source .



  For Offici. 1 U. e Only




                                              64

OIG Draft Audit Report
Recommendation #10                                                         NFSTC Response



Recommendation #10:

Remedy the $744,395 in unallowable questioned costs from the transfer of funds
from grant 2000-RC-CX-K001 to 2006-MU-8X-K002.

NFSTC 's Response :

The National Forensic Science Technology Center, Inc. ("NFSTC") concurs with the
OIG 's Recommendation #10.

The Office of Justice Programs (OJP ) has recommended that the outstanding audit
Recommendation (Number 4, OIG Audit Report GR-40-09-005) regarding the transfer
of $744,395 from Cooperative Agreement 2000-RC-CX-KOOI to 2006-MU-BX-K002 be
closed beca use ' :

     •    NFSTC mistakenly drew down the $744,395 in funds from the 2000 grant rather
          than from the 2006 grant ;
     •    NFSTC contacted OJP to determine the best way to correct this error and was
          advised to return the funds to OJP;
     •    The refund payment was erroneously applied to the 2006 award ;
     •    NFSTC provided a copy of its general ledger to support the Federal expenditures
          reported for both the 2000 and 2006 award ; and
     •    The expenditures agree with the payment history reports for both awards.


NFSTC agrees with OJP's recommendation that this matter be closed.




, Exce rpt from OIG Draft Report, pages 30 and 31.



For Official Use Only




                                                     65

                                                                     APPENDIX 5

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS 

                  NECESSARY TO CLOSE THE REPORT


        The OIG provided a draft of this audit report to the National Forensic Science
Technology Center (NFSTC) and Office of Justice Programs (OJP). The OJP
response is incorporated in Appendix 3 and the NFSTC response is in Appendix 4 of
this final report. In this final audit report we made minor technical changes to
reflect additional information provided to us by the NFSTC in response to our draft
report. These changes have no effect on our findings, conclusions, or
recommendations. The following provides the OIG analysis of the responses and a
summary of actions necessary to close the report.

Recommendation:

    1.	 Ensure that the National Forensic Science Technology Center
        establishes controls to adequately secure grant-funded equipment.

       Resolved. OJP concurred with our recommendation and stated in its
       response that it will coordinate with the NFSTC to obtain a copy of policies
       and procedures developed and implemented to strengthen controls over
       equipment purchased with federal funds.

       The NFSTC did not concur with this recommendation and stated that its
       facilities and assets are controlled using a key card system for all areas
       beyond the lobby so that all fixed or non-fixed assets remain secure. The
       NFSTC further stated that the non-fixed items discussed in the report lack
       sufficient detail to provide a response regarding these items. The NFSTC
       response said it was likely that the item referenced in our audit finding was
       the personal possession of an employee or visitor.

       During the audit, we noted that certain areas within the NFSTC facility did
       not have key card access, some areas leading into the main office remained
       opened, or the key card access was not in use. We also requested and
       received a listing of grant-funded equipment and the portable audio player
       was included on the listing of grant-funded property. For clarity, we
       included the inventory numbers for the non-fixed asset items on pages 7
       and 8 of this final audit report.

       This recommendation can be closed when we receive documentation for the
       controls established by the NFSTC to adequately secure grant-funded
       equipment.




                                          66

2.	 Ensure the National Forensic Science Technology Center updates its
    asset list to ensure that locations for Department of Justice
    grant-funded accountable property is identified accurately.

   Closed. This recommendation is closed based on the documentation the
   NFSTC provided that identified procedures for updating the asset list to
   ensure that locations for all items, including DOJ grant-funded property, are
   accurate.

3.	 Remedy the $105,778 in unreasonable questioned costs for
    retroactive pay that the National Forensic Science Technology
    Center provided based on re-evaluations of employee job
    descriptions.

   Resolved. OJP concurred with our recommendation and stated in its
   response that it will coordinate with the NFSTC to remedy the $105,778 in
   questioned costs for the retroactive pay the NFSTC provided for the
   reevaluations of employee job descriptions.

   The NFSTC did not concur with this recommendation and stated in its
   response that, as a standard business practice, companies review employee
   positions and pay rates in an effort to maintain competitive status in the
   job market. The NFSTC also did not concur that the questioned costs were
   unreasonable but stated that it recognizes how such a practice could be
   misunderstood. The NFSTC also stated that it will no longer apply
   retroactive pay increases to the grants for periods more than 30 days in the
   past. In addition, the NFSTC provided approved budget modifications that
   updated salary and job data for 19 of the 21 grants included in our audit
   scope.

   The OIG understands that positions are re-evaluated and we agree that the
   approved budget modifications addressed salary and job data changes.
   However, the OIG believes the decision to charge the salary increases
   retroactively to the grants should have been approved by OJP and, absent
   OJP approval, retroactive salary increases should not be applied to grants
   for any length of time. For that reason the practice is considered
   unreasonable.

   This recommendation can be closed when we receive documentation that
   the $105,778 in unreasonable questioned costs has been remedied.

4.	 Ensure that the National Forensic Science Technology Center
    establishes controls to ensure proper segregation of duties for
    individuals assigned to recommend salary increases paid with grant
    funds.

   Closed. This recommendation is closed based on the documentation
   provided by the NFSTC that addressed the duties and responsibilities for


                                     67

   individuals assigned to conduct, review, and approve the evaluations for
   salary increases.

5.	 Ensure that the National Forensic Science Technology Center
    establishes controls to perform routine updates to budget analyses
    of actual expenditures to approved budget categories to ensure
    corrections and adjustments are considered.

   Resolved. OJP concurred with our recommendation. OJP stated in its
   response that it will coordinate with the NFSTC to obtain a copy of policies
   and procedures developed and implemented to ensure that analyses of
   actual expenditures to approved budget categories are routinely updated,
   and corrections and adjustments are considered, as applicable.

   The NFSTC did not concur with our recommendation and stated that
   throughout its history with all OJP grants it has maintained a database with
   actual and budgeted expenditures. The NFSTC also stated that the actual
   expenditures are maintained daily and reported directly from the accounting
   system, including any adjustments that have been made. Additionally, the
   NFSTC stated that its financial closing process could affect the reporting of
   actual versus budgeted costs, and that the timing of the request could have
   affected our testing.

   During the audit, the NFSTC provided us three separate comparisons of its
   budgeted expenditures to actual expenditures. The first of these analyses
   covered calendar year 2008-2011. We sought to validate the NFSTC
   comparison of budgeted expenditures to actual expenditures. Based on our
   assessment, the NFSTC analysis was not accurate. When we asked the
   NFSTC staff about the differences between our validation and their
   comparison, they provided two additional comparisons, which we were also
   unable to validate. We asked the NFSTC staff for an explanation for the
   differences. They told us that the differences occurred because of
   adjustments for accruals, corrections, reclassifications of grant expenditures,
   and personnel changes within the accounting department. Given that our
   validation of the NFSTC’s comparison of budgeted expenditures to actual
   expenditures was made well after the 2008-2011 calendar year closing
   process, the NFSTC should have been able to produce an accurate
   comparison that we could validate.

   This recommendation can be closed when we receive documentation for the
   controls established to perform routine updates to budget analyses of actual
   expenditures to approved budget categories to ensure corrections and
   adjustments are considered.




                                     68

6.	 Ensure that the National Forensic Science Technology Center
    establishes controls to track cumulative transfer of grant funds
    within budget categories.

   Resolved. OJP concurred with our recommendation and stated in its
   response that it coordinate with the NFSTC to obtain a copy of policies and
   procedures developed and implemented to ensure that cumulative transfers
   of federal grant funds within budget categories are properly tracked.

   The NFSTC did not concur with our recommendation and stated that for
   each grant all costs and related audit adjustments are reconciled between
   the general ledger and the financial status reports by the Certified Public
   Accounting (CPA) firm used to conduct an annual audit.

   The OIG understands that the CPA firm reconciled the budget to actual
   expenditures using the general ledger and financial status reports.
   However, for grant management purposes, the transfer of actual
   expenditures should be tracked within the budget categories to ensure that
   cumulative transfer of grant expenditures among approved budget
   categories does not exceed 10 percent of the project costs, which is not
   done through the financial reporting process to OJP.

   This recommendation can be closed when we receive documentation for the
   controls established to track cumulative transfer of grant funds within
   budget categories.

7.	 Ensure that the National Forensic Science Technology Center
    accurately reports progress of the grants in the semiannual progress
    reports.

   Closed. This recommendation is closed based on the documentation the
   NFSTC provided that shows how it will ensure that the progress of the
   grants is accurately reported in the semiannual reports.

8.	 Ensure that the National Forensic Science Technology Center
    maintains complete and accurate documentation supporting all
    training courses held, including sign-in sheets with full dates.

   Resolved. OJP concurred with our recommendation and stated in its
   response that it will coordinate with the NFSTC to obtain a copy of policies
   and procedures developed and implemented to ensure the maintenance of
   complete and accurate documentation supporting all training courses held,
   including sign-in sheets with full dates.

   The NFSTC did not concur with this recommendation and stated that there
   were no requirements for the use of sign-in sheets to document and track
   training objectives.



                                     69

During the audit, the OIG reviewed documentation that the NFSTC provided
as support for the completion of training sessions. For one training session,
the NFSTC sought to support the number of participants by providing a
series of documentation that included a hotel invoice with the names of the
people occupying hotel rooms and spreadsheets with participants’ names.
However, the number of participants on the hotel invoice and spreadsheets
did not match what was reported on the progress report. For other training
sessions, we sought to verify participants by reviewing sign-in sheets, but
those were inconsistently and inadequately completed. The OJP Financial
Guide states that the funding recipient will ensure that valid and auditable
source documentation is available to support all data collected for each
performance measure specified in the program. Consequently, we believe
the sign-in sheets provided the best support for the number of participants
in attendance for grant-funded training sessions because it provides proof
that the participants were present.

In its response for Recommendation 7, the NFSTC stated that some of the
training sessions did not have sign-in sheets because those sessions were
replaced by another training session or because sign-in sheets are not a
grant requirement. Based on the documentation provided in response to
the draft report, we determined the following.

     Grant Number 2009-D1-BX-K028 – The grant included funding for
     the Law Enforcement Conference – Maximizing Forensic Resources.
     During the audit, the NFSTC Director of Contracts told us that the Law
     Enforcement Conference – Maximizing Forensic Resources was
     replaced by the 2009 Impression and Pattern Evidence Symposium.
     However, we determined that the 2009 Impression and Pattern
     Evidence Symposium was reported under Grant Number 2008-MU-MU­
     K212. The NFSTC stated in its response to our draft report that the
     Law Enforcement Conference – Maximizing Forensic Resources was not
     provided but was replaced by a National Public Safety Summit in
     October 2011. We were not told of this replacement during the audit.
     Given the conflicting information here, we are unsure which training
     sessions were provided under this grant. However, in the discussion
     of this grant in the table on page 20 of the report, we deleted the
     reference to “no sign-in sheets” for Grant Number 2009-D1-BX-K028.

     Grant Number 2008-MU-MU-K003 – The NFSTC stated in its
     response to our draft report that this grant was for the fiscal year 2008
     Forensic Technologies Center of Excellence and no training was
     provided. As part of our testing of the activities reported for this
     grant, we selected the General Forensics Research and Development
     Grantees Meeting reported in the July through December 2009
     progress report with 11 participants in attendance. We also selected
     the workshop for “Sequential Processing of Documents for
     Fingerprints: Getting All of What’s There” included in the January
     through June 2010 progress report with 12 participants in attendance.


                                  70

We believe both activities provided opportunities for participants to
receive information to enhance their knowledge and skills.
Furthermore, the NFSTC reported participants were in attendance and
did not provide documentation to support the number of participants
reported. We believe sign-in sheets were necessary to support the
participants’ attendance.

Grant Number 2007-MU-BX-K008 – The NFSTC stated in its
response to our draft report that training sessions were not provided
under this grant. Our finding does not reference training sessions for
this grant and, instead, notes that the NFSTC provided testing,
evaluation, and technology assistance. For this grant, the NFSTC
reported that a technical working group meeting was conducted and
17 participants attended. We requested but did not receive sign-in
sheets to support the attendance for these 17 participants. During the
audit, the NFSTC Director of Contracts told us that the sign-in sheets
could not be located. As stated in the NFSTC’s supporting
documentation, the meeting contributed to educating forensic
practitioners on the latest tools, technologies, and techniques in DNA
and general forensic disciplines. We believe the referenced meeting
provided an opportunity for participants to receive additional
knowledge and skills. Sign-in sheets were necessary because such
documentation would provide the best support for the 17 participants’
attendance.

The NFSTC response to the draft report also addressed the grants for
which we could not determine that grant objectives were met. In its
response, the NFSTC stated that the closeout package and final
progress reports were reviewed, accepted, and approved by the OJP
program manager and the performance measures were achieved. Our
assessment of the documentation provided during the audit is below.

Grant Numbers 2010-DN-BX-K265, 2009-DN-BX-K198, 2009­
DN-BX-K197, 2008-DN-BX-K201, 2008-DN-BX-K186, 2008-DN­
BX-K073, 2008-DN-BX-K072, 2007-IJ-CX-K233, and 2007-DD­
BX-K072 – The training dates included on the sign-in sheets were not
recorded consistently and did not include the timeframe for the
training sessions.

Grant Number 2008-MU-MU-K212 – The training dates were not
recorded consistently and did not include the timeframe for the
training sessions. The NFSTC reported 300 participants for the Post
Conviction DNA meeting and 350 participants for the 2009 Trace
Evidence Symposium. However, for the DNA meeting, the sign-in
sheets provided did not include dates and contained 270 signatures
instead of 300 as reported. For the Symposium, the NFSTC provided a
spreadsheet and hotel invoice for 147 participants, which do not




                           71

         support the 350 participants reported and do not adequately support
         participants’ attendance.

    This recommendation can be closed when we receive documentation that
    the NFSTC maintains complete and accurate documentation supporting all
    training courses held, including sign-in sheets with full dates.

9.	 Ensure that the National Forensic Science Technology Center obtains
    approval for all sole source contracts greater than $100,000. The
    sole source approval should apply to all grants used to pay the
    contract costs.

    Resolved. OJP concurred with our recommendation and stated in its
    response that it will coordinate with the NFSTC to obtain a copy of policies
    and procedures developed and implemented to ensure that prior approval is
    obtained from the awarding agency for all sole source contracts greater than
    $100,000, which are funded by federal grants.

    The NFSTC concurred with this recommendation and stated it would ensure
    sole source approval is obtained for vendors whose services exceed the
    $100,000 threshold. In its response the NFSTC provided a table of 14
    grants that had charges from the sole source event planner and stated that
    only 4 of those required sole source approval because those were the only
    grants where expenses exceeded $100,000.

    We believe the NFSTC is interpreting the OJP requirement incorrectly. The
    NFSTC response addressed grant expenditures that exceeded $100,000
    instead of contracts that exceeded $100,000. The OJP Financial Guide
    states that “all sole source procurements in excess of $100,000 must
    receive prior approval from the awarding agency.” This requirement is
    based on a per grant basis. The NFSTC should have received sole source
    approval for all contracts greater than $100,000 for all grants used to pay
    the contract costs.

    This recommendation can be closed when we receive documentation that
    the NFSTC obtains approval for all sole source contracts greater than
    $100,000 for all grants used to pay contract costs.

10.	 Remedy the $744,395 in unallowable questioned costs from the
     transfer of funds from Grant Number 2000-RC-CX-K001 to Grant
     Number 2006-MU-BX-K002.

    Resolved. OJP concurred with our recommendation and stated in its
    response that it will coordinate with the NFSTC to remedy the $744,395 in
    unallowable questioned costs related to the transfer of funds from Grant
    Number 2000-RC-CX-K001 to Grant Number 2006-MU-BX-K002.




                                     72

The NFSTC concurred with this recommendation and stated that it agrees
with comments OJP made regarding the related recommendation contained
in our prior audit report. In those comments, OJP asked that the related
recommendation in the prior report be closed. As noted on pages 23-26 of
this report, we declined to close the recommendation in our prior audit
report because the NFSTC has, under Grant Number 2006-MU-BX-K002,
expended $744,395 more than the amount authorized.

This recommendation can be closed when we receive documentation that
the $744,395 in unallowable questioned costs has been remedied.




                                73

